<html>
<title> - H.R. 3331, THE ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT; H.R. 3390, THE ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT; H.R. 3516, TO PROHIBIT PELAGIC LONGLINE FISHING IN THE EXCLUSIVE ECONOMIC ZONE IN THE ATLANTIC OCEAN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




H.R. 3331, THE ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT; H.R. 
  3390, THE ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT; H.R. 
 3516, TO PROHIBIT PELAGIC LONGLINE FISHING IN THE EXCLUSIVE ECONOMIC 
                       ZONE IN THE ATLANTIC OCEAN

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES, CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                    FEBRUARY 8, 2000, WASHINGTON, DC

                               __________

                           Serial No. 106-68

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
64-488 <l-ar/r-ar>          WASHINGTON : 2000
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SOLOMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 8, 2000....................................     1

Statements of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     4
    Goss, Hon. Porter J., a Representative in Congress from the 
      State of Florida...........................................     6
        Prepared statement of....................................     7
    Pallone, Frank, Jr., a Representative in Congress from the 
      State of New Jersey........................................     4
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     3

Statements of witnesses:
    Caputi, Mr. Gary, Co-Chairman, Highly Migratory Species 
      Committee, Jersey Coast Anglers Association................    90
        Prepared statement of....................................    92
    Dalton, Penelope, Assistant Administrator for Fisheries, 
      National Marine Fisheries Service, National Oceanic and 
      Atmospheric Administration, accompanied by Dr. Rebecca 
      Lent, Chief, Highly Migratory Species Management Division, 
      National Marine Fisheries Service..........................     9
        Prepared statement of....................................    12
    Delaney, Mr. Glenn Roger, Blue Water Fishermen's Association 
      and U.S. Commissioner to ICCAT.............................    26
        Prepared statement of....................................    29
    Hayes, Mr. Robert G., General Counsel, Coastal Conservation 
      Association, American Sportfishing Association, The 
      Billfish Foundation........................................    54
        Prepared statement of....................................    55
    Nussman, Mr. Michael, Vice President, American Sportfishing 
      Association................................................    46
        Prepared statement of....................................    48
    Panacek, Mr. Ernest, Manager, Viking Village Dock, Barnegat 
      Light, New Jersey..........................................    59
        Prepared statement of....................................    62
    Stone, Mr. Richard B., Science Advisor, Recreational Fishing 
      Alliance...................................................    79
        Prepared statement of....................................    81
    Wilmot, Dr. David, Executive Director, Living Oceans Program, 
      National Audubon Society...................................    96
        Prepared statement of....................................    99

Additional material submitted:
    Hinman, Ken, National Coalition for Marine Conservation, 
      prepared statement of......................................    85

 
H.R. 3331, THE ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT; H.R. 
  3390, THE ATLANTIC HIGHLY MIGRATORY SPECIES CONSERVATION ACT; H.R. 
 3516, TO PROHIBIT PELAGIC LONGLINE FISHING IN THE EXCLUSIVE ECONOMIC 
                       ZONE IN THE ATLANTIC OCEAN

                              ----------                              


                       TUESDAY, FEBRUARY 8, 2000

              House of Representatives,    
                        Committee on Resources,    
                Subcommittee on Fisheries Conservation,    
                                       Wildlife and Oceans,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11 a.m., in Room 
1324, Longworth House Office Building, Hon. Jim Saxton 
[Chairman of the Committee] presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans will come to order. Today, the Subcommittee 
is conducting its first in a series of hearings concerning 
pelagic longline fishing in the Atlantic Ocean and the Gulf of 
Mexico. The focus of this hearing will be on H.R. 3331, H.R. 
3390, a proposal by Congressman Porter Goss who is with us this 
morning, also co-sponsored by Mr. Tauzin, and H.R. 3516, a 
measure by Congressman Mark Sanford to prohibit pelagic 
longline fishing in our Atlantic Exclusive Economic Zone.
    In addition, we will examine the National Marine Fisheries 
Service's recommendation that time and area closures be 
established to address pelagic longline bycatch without 
compensation to pelagic longline fishermen. The National Marine 
Fisheries Service proposed closures are similar to those 
designated in two of the bills that I mentioned, but do differ 
in the Western Gulf of Mexico and the area off the coast of 
South Carolina known as the Charleston Bump.
    We stand at an historic crossroads for the conservation of 
highly migratory species. The effective management of Atlantic 
highly migratory species is one of the most complex and 
difficult challenges facing the National Marine Fisheries 
Service and this Committee, I can tell you first-hand. These 
species range widely throughout international waters and the 
jurisdictions of many coastal nations with diverse political 
perspectives on how to properly utilize and manage this 
valuable resource.
    The fishing practices and marketing strategies for these 
species are equally diverse. Unlike most other domestic 
fisheries, effective multilateral management is the goal of our 
Nation's HMS policy. In fact, Congress placed Atlantic HMS 
management authority in the hands of the Secretary of Commerce 
instead of the Regional Fishery Management Councils, in theory, 
to ensure that our government maintains an Atlantic-wide 
perspective and vision.
    It is my firm belief that this Committee and this Congress, 
together with thousands of concerned fishermen and 
conservationists, have a unique opportunity to work together to 
aggressively protect and rebuild stocks of HMS such as 
billfish, sharks and swordfish.
    In August of 1999, I was approached by representatives of 
the longline industry and three recreation/conservation fishing 
organizations who suggested I sponsor legislation which would 
do several things: (1) permanently close a vast area of U.S. 
waters in the South Atlantic to pelagic longline fishing; (2) 
establish two time-area closures in the Gulf of Mexico to 
pelagic longlining; (3) reduce billfish bycatch and the 
harvesting of juvenile swordfish; and (4) provide affected 
fishermen a buyout to compensate them for the loss of fishing 
grounds and fishing opportunities. I remain a strong supporter 
of this concept.
    I believe in this concept because the current management 
system whereby NMFS publishes a regulatory rule that is 
challenged by seemingly endless lawsuits is not an effective 
way of promoting sound HMS fishery management. This system has 
to change.
    Frankly, I introduced H.R. 3331, in part, because the 
National Marine Fisheries Service established the pelagic 
longline fishery as a limited-entry fishery through the HMS 
Fishery Management Plan. As NMFS is well aware, I have been 
asking them to take this action for many years. The 
establishment of a limited-access system is critical to reduce 
harvesting capacity through attrition or a buyback program. 
Hence, once pelagic longline permits for HMS are bought out as 
proposed in H.R. 3331 and H.R. 3390, there would be no further 
vessels re-entering the fishery.
    In addition, last November the International Convention for 
the Conservation of Atlantic Tunas, ICCAT, led by the United 
States, approved a 10-year rebuilding plan for North Atlantic 
swordfish. Although the final approved plan did not go as far 
as I would have liked in reducing the annual quota 
internationally, it nevertheless set an important tone for 
conservation. I commend the U.S. ICCAT Commissioners for their 
tenacity in getting the rebuilding plan approved.
    Before we hear from out witnesses, I would like to make the 
following statement: Prior to and following the introduction of 
H.R. 3331, I and Subcommittee staff met with, and spoke to, a 
number of pelagic longline fishermen, recreational fishermen 
and their organizations, and a number of conservation and 
environmental groups. I am well aware of the strong opinions 
expressed by many on the issue of pelagic longline fishing, 
bycatch, and any buyback proposal. I am also very cognizant of 
the daily skirmishes that occur between certain commercial and 
recreational fishing organizations on the issue of pelagic 
longline fishing. I wish to remind the witnesses that this is 
not the proper forum for those battles. We are here to learn 
and then, following this learning session and perhaps several 
others, we will be prepared hopefully to take action.
    I would like to ask the witnesses to keep in mind that this 
Subcommittee is focused on producing a product that best 
encompasses conservation of affected highly migratory species 
and maintains a viable U.S. swordfish industry. This is the 
beginning of what I suspect will be an arduous process, but I 
am confident that with the input of many, we can provide a 
conservation measure that is good for our beleaguered highly 
migratory species of fish. The stakes are high and further 
inaction is no longer an option.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Reprsentative in Congress from the 
                          State of New Jersey

    Today, the Subcommittee is conducting its first in a series 
of hearings concerning pelagic longline fishing in the Atlantic 
Ocean and the Gulf of Mexico. The focus of this hearing will be 
my bill, H.R. 3331; H.R. 3390, a proposal by Congressmen Porter 
Goss and Billy Tauzin; and H.R. 3516, a measure by Congressman 
Mark Sanford to prohibit pelagic longline fishing in our 
Atlantic Exclusive Economic Zone. In addition, we will examine 
the National Marine Fisheries Service's (NMFS) recommendation 
that time and area closures be established to address pelagic 
longline bycatch without compensation to pelagic longline 
fishermen. The NMFS proposed closures are similar to those 
designated by H.R. 3331 and H.R. 3390.
    It is my firm belief that this Committee and this Congress, 
together with thousands of concerned fishermen and 
conservationists, have a unique opportunity to work together to 
aggressively protect and rebuild stocks of HMS such as 
billfish, sharks and swordfish.
    In August of 1999, I was approached by representatives of 
the longline industry and three recreation conservation fishing 
organizations who suggested I sponsor legislation to: (1) 
permanently close a vast area of U.S. waters in the South 
Atlantic to pelagic longline fishing; (2) establish two time-
area closures in the Gulf of Mexico to pelagic longlining; (3) 
reduce billfish bycatch and the harvesting of juvenile 
swordfish; and (4) provide affected fishermen a buyout to 
compensate them for the loss of fishing grounds and fishing 
opportunities. I remain a strong supporter of this concept.
    I believe in this concept because the current management 
system whereby NMFS publishes a regulatory rule that is 
challenged by seemingly endless lawsuits is not an effective 
way of promoting sound HMS fishery management. This system has 
to change.
    Frankly, I introduced H.R. 3331 in part, because the 
National Marine Fisheries Service established the pelagic 
longline fishery as a limited-entry fishery through the HMS 
Fishery Management Plan. As NMFS is well aware, I have been 
asking them to take this action for many years. The 
establishment of a limited access system is critical to reduce 
harvesting capacity through attrition or a buyback program. 
Hence, once pelagic longline permits for HMS are boughtout as 
proposed in H.R. 3331 and H.R. 3390, there would be no further 
vessels re-entering the fishery.
    In addition, last November the International Convention for 
the Conservation of Atlantic Tunas (ICCAT), led by the United 
States, approved a ten-year rebuilding plan for North Atlantic 
swordfish. Although the final approved plan did not go as far 
as I would have liked in reducing the annual quota 
internationally, it nevertheless set an important tone for 
conservation. I commend the U.S. ICCAT Commissioners for their 
tenacity in getting the rebuilding plan approved.
    Before we hear from our witnesses, I would like to make the 
following statement: Prior to and following the introduction of 
H.R. 3331, I and Subcommittee staff met with, and spoke to, a 
number of pelagic longline fishermen, recreational fishermen 
and their organizations, and a number of conservation and 
environmental groups. I am well aware of the strong opinions 
expressed by many on the issue of pelagic longline fishing, 
bycatch, and any buyback proposal. I am also very cognizant of 
the daily skirmishes that occur between certain commercial and 
recreational fishing organizations on the issue of pelagic 
longline fishing. I wish to remind the witnesses that this is 
not the proper forum for those battles. I would ask the 
witnesses to keep in mind that this Subcommittee is focused on 
producinga product that best encompasses conservation of 
affected highly migratory species and maintains a viable U.S. 
swordfish industry. This is the beginning of what I suspect 
will be an arduous process, but I am confident that with the 
input of many, we can provide a conservation measure that is 
good for our beleaguered highly migratory species of fish. The 
stakes are high and further inaction is no longer an option!

    Mr. Saxton. I would now like to recognize the Ranking 
Minority Member for any statement he may have.
    Mr. Faleomavaega.

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman, and I certainly 
would like to welcome our good friend and colleague, the 
gentleman from Florida, Mr. Goss, as he will be testifying 
later.
    Mr. Chairman, thank you for holding this hearing today on 
these different legislative proposals to address overfishing 
and bycatch concerns in the Highly Migratory Fisheries and, in 
particular, the swordfish industry of the Atlantic Ocean. As 
you mentioned earlier, Mr. Chairman, the Atlantic swordfish and 
other highly migratory species have been managed 
internationally for many years by the International Commission 
for the Conservation of Atlantic Tunas.
    In recent years, quotas and rebuilding plans have been 
adopted by ICCAT to promote the recovery of swordfish which are 
currently over-fished. While U.S. fishermen have been strictly 
held to those quotas, other nations unfortunately have not been 
as diligent. As a result of the new bycatch reduction 
requirements under the Magnuson Act, additional restrictions 
will be needed by the U.S. fisheries. The National Marine 
Fisheries Service, the entity charged with management of highly 
migratory species, has proposed time-area closures, and these 
bills lay out alternatives to the NMFS approach.
    I am aware that there will likely be concerns raised about 
Congress legislatively establishing management measures for 
this or any fishery, as well as concerns about other provisions 
to the various bills that preclude further time-area closures 
and require that the buyout proposals be fully appropriated 
before any closures can go into effect. I expect that some of 
the witnesses today will elaborate on those points. At the same 
time, Mr. Chairman, I have no doubt that your highest priority 
is to ensure the long-term conservation and sustainability of 
swordfish is, and has always been your goal, for all marine 
resources.
    So, with that in mind, I am here today to listen and to 
learn from all the witnesses in hopes that these concerns can 
be resolved and that we can all work together to ensure the 
long-term viability of this resource and the industry that 
depends on it.
    Thank you, Mr. Chairman.
    Mr. Saxton. The gentleman from New Jersey, Mr. Pallone.

 STATEMENT OF FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I am pleased that 
this important issue, conserving the Atlantic highly migratory 
species, is now being considered by your Subcommittee. Today, 
we are contemplating various proposals designed to preserve 
highly migratory species of fish in the Atlantic to reduce 
bycatch of over-fished and protected species, and to minimize 
the economic impacts on affected commercial fishermen. These 
proposals all close geographic areas for certain periods of 
time to commercial pelagic longline fishing, providing a new 
and ambitious management strategy to reduce incidental catch of 
undersized, overfished, and protected species.
    The geographic extent of the closure should correspond to 
hotspots where the species to be conserved and protected are 
most likely to be otherwise caught. But because it is a new 
strategy, significant questions remain concerning the effect 
time-area closures will have on both fishing effort and 
obviously on fishing communities.
    It is obviously a difficult issue, you can tell that from 
what the Chairman has already said. The negotiations process 
has come far in the past few weeks, but we still have a long 
way to go, and I look forward to working with scientists, 
recreational and commercial fishermen, and the 
conservationists, to find an effective solution for all, and 
basically will be listening to the testimony today and talking 
again to some of the affected parties in New Jersey as well as 
throughout the country. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you. Before we proceed, let me ask 
unanimous consent that also Committee members be permitted to 
include their opening statements in the record.
    Before we move to Mr. Goss, it has been mentioned by myself 
and by my two colleagues that certain areas would be closed to 
longline fishing, and I would like to ask Mr. Howarth if he 
would explain the differences in these lines to the Committee 
members and to members of the public.
    Mr. Howarth. Thank you, Mr. Chairman. I will be very brief. 
Members, in your folders, behind your background memo, are 
copies of these maps. There are charts to the left for the 
witnesses and charts to the right for members. On the maps are 
a series of lines. The one farthest south from the Gulf that is 
yellow and black represents the EEZ. That represents the EEZ as 
well as Mr. Sanford's bill banning pelagic longline fishing in 
the Atlantic EEZ.
    The green line in the Western Gulf represents the NMFS 
proposal for the Gulf of Mexico.
    The blue and red line in the Gulf closer to the shore 
represents Mr. Saxton's bill and Mr. Goss' bill. In the 
Atlantic, the lines blue and red, going up the East Coast, 
represent again Mr. Saxton and Mr. Goss' proposals. Also, you 
will see in the Atlantic a green line. That represents the 
Charleston Bump that you heard in the Chairman's testimony, and 
that is from the NMFS proposal.
    This map here on the dais and the map over there represent 
the same picture. Out to the witnesses' left and the members' 
right represents the Mid-Atlantic. Again, the black and the 
yellow line represents the EEZ, the Exclusive Economic Zone, 
and the red line represents Mr. Saxton's proposal of the Mid-
Atlantic buyout area. Thank you.
    Mr. Saxton. Well, that certainly cleared that up.
    I am very pleased to have our friend and colleague from the 
State of Florida here with us today, Mr. Goss, who is the 
sponsor of H.R. 3390.
    Mr. Goss, we are pleased that you are here. You may proceed 
as you see fit.

STATEMENT OF HON. PORTER J. GOSS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Goss. Thank you. I am obviously glad to be here, too, 
on this occasion, and I very much appreciate your leadership 
and the interest of the members of your Subcommittee on this 
subject. It is a matter clearly to say whose time has come is 
well understood. I have a prepared statement which I would like 
to submit for the record, and I would like to abbreviate it and 
just make a few points, if that is permitted.
    First of all, I am very happy that my lead co-sponsor on 
H.R. 3390, which is the bill which I wish to address, is our 
colleague from Louisiana, Mr. Tauzin, who is well known and has 
been long involved in dealing with these fishery matters.
    H.R. 3390, as we are presenting it, is a legislative 
embodiment of an agreement between the commercial fishing 
industry and conservation groups to close, as the map shows, 
some 160,000 square miles to pelagic longlining in the South 
Atlantic and the Gulf of Mexico.
    The bill is a compromise that came about after extensive 
negotiation. It is the compromise that now exists, and I think 
it represents a win for all parties, which is why the bill is 
brought forward.
    As you have described, or as your staff has described, the 
bill affects an area from Sanibel, roughly, on the west coast 
of Florida, down around the tip of Florida, up the South 
Carolina coast.
    The areas selected for closure were chosen because the 
scientific analysis done by NMFS and independent scientists 
because they have high concentrations of small swordfish 
bycatch and billfish bycatch. Closing them should allow these 
stocks to rebound without unduly disrupting the swordfish 
longlining industry, and that, I think, is the basis of the 
compromise.
    In addition, the 68 longlining vessels that use these 
fisheries will be bought out by the government. In return, 
these vessels are not going to go back into that fishery or 
other commercial fisheries.
    Payment for the buyout in our bill comes from a combination 
of Treasury funds, consumers of swordfish, and a user fee in 
fact imposed on recreational fishermen.
    The bill does include a bycatch reduction research program. 
This effort is designed to help develop measurable methods to 
further reduce bycatch. This is an area I have been 
particularly interested, as the Chairman well knows, and I 
think follows on the gentleman from New Jersey, Mr. Pallone's, 
remarks as well.
    I also want to point out that a lot of interested parties 
have come forward on this on both sides and, frankly, I have 
had a lot of time to work with the Coastal Conservation 
Association, and I very much appreciate the CCA efforts and 
take on this and some other matters over the years.
    I know, Mr. Chairman, that you would like to expand the 
closed fisheries area and that you have legislation to do that, 
and I very much congratulate you on that effort. I am hopeful 
that that process will move forward in a smooth way 
legislatively, at the same time not losing anything that we 
have achieved so far, as reflected in H.R. 3390, the base bill 
compromise which we are trying to get passed.
    I think that this is a unique time, that we have seen, 
finally, in these wars that go on, an area where people have 
come together and sat down and worked out an agreement. I think 
in that case this is somewhat benchmark, and I genuinely would 
like to thank all the parties involved on both sides of the 
issue for rationally trying to find a solution that is based on 
science and is also based on fair play and comes up with a 
piece of legislation which I think our colleagues would be able 
to support.
    Having said that, I would also like to thank Mr. 
Faleomavaega for his kind reception and hospitality here, and 
to tell him also that he was well represented by M/Sgt. Totela 
Alefonga [phonetic] in American Samoa at the occasion of my 
recent visit there, where I learned something about the 
problems of the fisheries in that area first-hand. And I wish 
he would give my best wishes to M/Sgt. Totela Alefonga, and be 
assured, Mr. Faleomavaega, that you were well represented. 
Thank you, Mr. Chairman, that is all I have to offer at this 
time. I would be happy to answer any questions.
    [The prepared statement of Mr. Goss follows:]

 Statement of Hon. Porter Goss, a Representative in congress from the 
                            state of Florida

    Mr. Chairman, I am pleased to be here this morning to 
discuss H.R. 3390, the Atlantic Highly Migratory Species 
Conservation Act. For me, this bill is an excellent model for 
how conservation issues should be addressed. Unfortunately, as 
my colleagues well know, most environmental debates are often 
politicized for partisan gain and have little to do with 
substance or solutions. It is not often that combatants in 
conservation issues can put aside their differences long enough 
to come to a consensus agreement that will benefit both parties 
and ensure meaningful protection for our resources. So, I am 
delighted to be here today with what I hope is a constructive 
solution to a very real problem. The consensus reflected in 
H.R. 3390 will greatly enhance the conservation of billfishes 
and facilitate rebuilding of the swordfish stocks.
    In the fall of 1998, representatives of four groups began a 
discussion that has resulted in the bill I introduced. The 
Coastal Conservation Association, the American Sportfishing 
Association, The Billfish Foundation and the Blue Water 
Fisherman's Association have come together to address the 
decline of Atlantic billfishes and the increase in catches of 
juvenile swordfish.
    H.R. 3390 will close some 160,000 square miles to pelagic 
longlining in the South Atlantic and the Gulf of Mexico. These 
closures, developed from scientific analysis done by 
independent scientists and the National Marine Fisheries 
Service, cover a broad spectrum of conservation benefits 
without unduly disrupting the swordfish longlining industry. 
The areas were selected because of the high concentration of 
small swordfish catch and billfish by-catch.
    The Atlantic closed area extends from my Southwest Florida 
district at Sanibel Island south to Key West, then north all 
the way to the South Carolina North Carolina boarder. This area 
will produce the lion's share of the conservation and economic 
benefit from this bill. The closure is permanent and will 
significantly reduce the catch of small swordfish and sailfish 
byeatch. Portions of the Gulf will see a three-month closure 
that accomplishes similar objectives.
    Although no one has computed the exact economic benefit of 
the legislation, there is no question that it will be a huge 
boost for the economy of my home state of Florida and, 
ultimately, the nation. Florida is the number one marine 
recreational fishing state in the country. That activity cannot 
be sustained without healthy populations of fish. The benefits 
from the Atlantic closure will make the East Coast of Florida 
one of the premier sailfish fisheries in the world.
    These benefits do not come without a cost, however. In 
order to get this level of economic and conservation benefit, 
the legislation makes 68 longline vessels eligible for buy-out 
of the vessel's fishing permits. In return for the buy-out, the 
longlining vessels are forever foreclosed from returning to 
this fishery or any other commercial fishing worldwide. Payment 
for the buyout comes from a combination off Treasury funds, 
consumers of swordfish and a fee imposed on recreational 
fishermen.
    The legislation also includes a bycatch reduction research 
program. The three-year program will direct scientists, 
sponsored by both the commercial industry and recreational 
groups, to develop measurable methods to further reduce bycatch 
in the longline fishery. There is a special emphasis in the 
mid-Atlantic to monitor displacement of vessels and propose 
ways to remedy it.
    I said earlier that the bill is not perfect. Indeed, I have 
yet to see a perfect piece of legislation. No group is going to 
get all they want in this legislation but, taken as a whole, 
this is a good piece of legislation that addresses a real 
conservation problem. We should not pass up this opportunity.
    I commend the groups that have signed the agreement and I 
am particularly proud to sponsor this legislation because of my 
respect for the work of the Coastal Conservation Association. 
In my state of Florida, CCA has always led the charge in the 
fight to protect our marine resources and I am pleased to see 
that commendable record of accomplishment continue.
    Mr. Chairman, I know that you have legislation that would 
expand the buyout area envisioned in H.R. 3390. I commend you 
for that effort. I remain hopeful that throughout the 
legislative process as we move this bill toward passage, we 
will maintain the delicately balanced compromise that produced 
the agreement to close these fisheries.
    Once again, I want to thank the Chairman and the other 
members of the Committee for the opportunity to appear before 
you this morning. Thank you.

    Mr. Saxton. Thank you very much for your statement and for 
your brevity, it is appreciated. I would just like to get one 
issue out on the table while you are here, and that is this: 
The area that you and I close are identical in our bills. The 
uppermost concern in the mind of many is that we have no way of 
knowing how many longline fishermen or fisherboats which are 
currently ported, docked, in or adjacent to the closed area, 
would opt to be bought out under the proposal, and how many 
would opt to go fish somewhere else.
    As a Representative of the middle Atlantic States, New 
Jersey in particular, we have some concern that without some 
provisions added to your bill, as is currently represented by 
some provisions in my bill, to address the issue referred to as 
``displacement of fishermen'', that many of the boats might, 
could, or would, move north, simply moving the fishing effort 
from the closed area to the area that would remain open, 
commonly referred to in these discussions as the mid-Atlantic 
Bight.
    I am just interested in your thoughts on this issue because 
somehow, if we are going to be successful in getting a bill, we 
need to find a solution to this problem, and I am just 
interested in your comments.
    Mr. Goss. Mr. Chairman, as I said, I congratulate you on 
your efforts to do that because I think fair play is a critical 
factor in any piece of legislation, and I don't think we really 
entirely understand all the consequences of any legislation we 
pass.
    What I seek to do is to bring forward a slice of this 
problem that I am pretty sure would be noncontroversial as it 
stands by itself because that is what the parties have agreed 
to.
    Do I think this is final solution, the only solution, the 
best solution? No, it is not. It is what we have got so far. 
And if it can be improved and made fairer, specifically 
referring to the displacement issue, that is certainly fine by 
me. It is not my view that we want to in any way be unfair, but 
it is certainly my view that we have to have agreement among 
the parties in order to pass workable legislation, and that is 
why I brought forward H.R. 3390 in its present form. If you 
could improve upon it, you will certainly have my support in 
any way I can.
    Displacement of fishermen is a huge problem. The industry 
has obviously undergone some very serious readjustment. I know, 
with Mr. Faleomavaega, we have talked a lot about porpoises and 
tuna and so forth, and dealing with environmental approaches. 
And I find that rational people sitting down and negotiating 
these things out on the basis of good science and fair play is 
the best way to come to a reasonable solution. I think that 
this first step today legislatively opens the door for more of 
the same, and so I have nothing but encouragement for people 
who are going to try and make a better bill, a fairer bill, if 
it is possible to do, with the consent of all parties.
    Mr. Saxton. Thank you very much. Mr.Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and again I want 
to assure the gentleman that certainly this Member will 
definitely be seeking his advice and his wisdom and 
understanding of the complications involved here. This is just 
with the Atlantic. It is just as much similar problems that 
we're faced with in the Pacific, and probably to the uniqueness 
of our Nation, the fact is not only as an Atlantic nation but 
as a Pacific nation. But I do want to thank the gentleman for 
coming up with his initiative so that the members of this 
Subcommittee will certainly be aware of the concerns that have 
been addressed by the provisions of H.R. 3390. I want to assure 
the gentleman that I will be closely working with him to see 
what we can do to improve this legislation. Thank you, Mr. 
Chairman.
    Mr. Saxton. Mr. Goss, thank you very much, we appreciate 
your being with us this morning. At this time, we have no 
further questions.
    Mr. Goss. Thank you, Mr. Chairman. I have always been 
hospitably welcomed here, and I appreciate it. It is a pleasure 
to do business with your Subcommittee and its members.
    Mr. Saxton. Thank you very much.
    I would now like to move on to our next panel. I would now 
like to introduce Ms. Penny Dalton, Assistant Administrator for 
Fisheries at the National Marine Fisheries Service. I would 
like to remind the witness that we operate here under the five-
minute rule, which is sometimes flexible. Your written 
testimony certainly will be included in its entirety in the 
record and, Penny, you can begin when you are comfortable.

   STATEMENT OF PENELOPE DALTON, ASSISTANT ADMINISTRATOR FOR 
FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC 
  AND ATMOSPHERIC ADMINISTRATION, ACCOMPANIED BY DR. REBECCA 
  LENT, CHIEF, HIGHLY MIGRATORY SPECIES MANAGEMENT DIVISION, 
               NATIONAL MARINE FISHERIES SERVICE

    Ms. Dalton. Good morning, Mr. Chairman and members of the 
Subcommittee. I am Penny Dalton, NOAA Assistant Administrator 
for Fisheries. Accompanying me today is Dr. Rebecca Lent. She 
is the Chief for our Highly Migratory Species Management 
Division.
    Thank you for the opportunity to testify today on three 
legislative proposals before the Subcommittee: H.R. 3331 and 
H.R. 3390, both titled the Atlantic Highly Migratory Species 
Conservation Act; and H.R. 3516, legislation to prohibit 
pelagic longline fishing in the Exclusive Economic Zone in the 
Atlantic Ocean. I also will discuss our December 15 Rule 
proposing establishment of time and area closures for the 
longline fleet to reduce bycatch.
    Mr. Chairman, my written testimony provides a detailed 
review of the proposed Rule and the three bills. In the 
interest of time, I will briefly compare the Rule and the 
legislation and then discuss our analysis and conclusions.
    The proposed Rule includes as a preferred alternative a 
year-round closure of the Southeast Atlantic Coast and a seven-
month closure, from March 1 to September 30th, in the Western 
Gulf of Mexico. In selecting this preferred alternative, NOAA 
Fisheries examined several options and balanced the need to (1) 
reduce bycatch of small swordfish, also billfish, bluefin tuna 
and sharks, and (2) minimize reductions in target catches.
    NOAA Fisheries has published a Proposed Rule and a 75-day 
comment period currently is underway, which will end on March 
1, 2000. Once the comments have been compiled and considered, 
NOAA Fisheries will complete action on the Final Rule. Similar 
areas are proposed for closure in the Rule, H.R. 3331 and H.R. 
3390, albeit with some important differences. The South 
Atlantic Bight closure in the Proposed Rule is larger on the 
northern end to account for the variable location of the 
oceanographic feature known as the Charleston Bump. In 
addition, the Proposed Rule would close the Western end of the 
Gulf which is different from the legislative proposals to close 
an area all along the Northern Gulf Coast.
    NOAA Fisheries has only recently begun to use time and area 
closures as a management tool for this fishery. Analyzing the 
impacts and effectiveness that time and area closures on the 
Atlantic pelagic longline fleet has proven to be challenging 
because it is difficult to predict changes in fishing patterns 
when the areas are closed.
    To examine a range of possibilities, NOAA Fisheries 
conducted analyses under two different assumptions regarding 
the fishermen's behavior. The first assumption is that there 
would be zero-effort redistribution. In other words, sets 
currently made in the proposed closed areas would not be made 
elsewhere.
    The second assumption is that there would be a total effort 
redistribution. That is, all of the sets currently made by 
fishermen in the proposed closed areas would be made in other 
open areas.
    The benefits from the time and area closures under the two 
effort redistribution models have been evaluated for the 
Proposed Rule and for both bills. A comparison of the 
effectiveness of all the proposals is shown in the attached 
table at the end of my written testimony.
    In the South Atlantic, the impact of time and area closures 
under the Proposed Rule is similar to that for the bills under 
both models. In the Gulf of Mexico, the time and area closures 
in the Proposed Rule may be more effective at reducing billfish 
bycatch than the proposals in the bill, again, under both 
effort and redistribution scenarios. For both the Proposed Rule 
and the legislative proposals, the net effects will likely be 
somewhere between zero and total displacement, although the 
buyback program proposed in the bills would be likely to reduce 
displaced effort.
    Our analyses shows that there are benefits from time and 
area closures even if effort is displaced at the same time our 
analyses indicated that the extent of the socio-economic 
impacts associated with the Proposed Rule and the need to 
consider mitigating measures such as the buyout. The economic 
and community effects of the Proposed Rule may be substantial. 
Losses in gross revenues to fishing vessels could be as high as 
$14 million per year. And an examination of individual vessel 
records indicate that up to 20 percent of the vessels could 
lose half of their gross income.
    In addition, swordfish dealers could face substantial 
reductions in the total weight of fishes they handle. Comments 
at public hearings indicate that the effects would not be 
confined to the pelagic longline fishery. Processors and small 
businesses supplying the fleet with bait, ice and other 
provisions would also be affected.
    Finally, for those vessel operators remaining in the 
fishery, fishing cost could increase if vessels must go further 
offshore or relocate as a result of closures.
    Overall, NOAA Fisheries supports the intent of H.R. 3331 
and H.R. 3390 to address bycatch concerns in the pelagic 
longline fishery and to reduce overcapacity and economic 
disruptions that result.
    We would like to work with you to deal with certain 
provisions of the legislation that we cannot support as they 
currently are drafted.
    While we are still completing our legislative analyses, we 
would like to point out two specific areas of concern. As we 
mentioned before, the impact of a time and area closure is 
difficult to predict. However, we do believe that there will be 
some redistribution of effort, possibly into areas with higher 
turtle or mammal bycatch. As introduced, the bills currently do 
not provide NOAA Fisheries to address increased turtle or 
marine mammal bycatch or other potential conversation issues in 
the remaining open areas.
    We would be supportive of an industry-funded buyout, 
however, the cost associated with the implementation of the 
buyout must be considered. We have limited administrative 
resources to collect fees from wholesalers and recreational 
fishermen. NOAA Fisheries also lacks funds to pay for the BMS 
units and this would set an adverse precedent for other 
fisheries.
    In addition, we would like to see increased flexibility 
with respect to implementing the buyout program and other 
provisions of the legislation if only partial funding is 
available.
    We recognize the enormous effort and unprecedented 
collaboration between commercial fishermen and marine anglers 
in developing these legislative proposals. We applaud the 
efforts of the sponsors to meet the conservation requirements 
and minimize adverse impacts on displaced fishermen. I look 
forward to working with you to address our concerns and to 
enacting legislation that we can fully support.
    [The prepared statement of Ms. Dalton follows:]

Statement of Penelope D. Dalton, Assistant Administrator for Fisheries, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

    Good morning, Mr. Chairman and members of the Subcommittee. 
I am Penny Dalton, Assistant Administrator for Fisheries of the 
National Oceanic and Atmospheric Administration. Thank you for 
the opportunity to testify today on three legislative proposals 
before the Subcommittee: H.R. 3331 and H.R. 3390, both titled 
the Atlantic Highly Migratory Species Conservation Act; and 
H.R. 3516, legislation to prohibit pelagic longline fishing in 
the Exclusive Economic Zone in the Atlantic Ocean.

DOMESTIC AND INTERNATIONAL MANAGEMENT OF ATLANTIC HIGHLY 
MIGRATORY SPECIES

    Atlantic highly migratory species (HMS), such as swordfish, 
tunas, billfish, and sharks, range throughout tropical and 
temperate oceans and include some of the world's largest and 
most valuable fish. They are sought after by commercial 
fishermen and prized by sport anglers. In addition, HMS 
conservation and management has attracted considerable interest 
by the environmental community and the general public. Total 
commercial landings of Atlantic HMS in 1998 were over 15 
thousand metric tons (mt), and the ex-vessel value was over $70 
million. Expenditures in recreational fisheries for highly 
migratory species are in the hundreds of millions of dollars.
    Since the early 1990s, Atlantic HMS have been managed 
directly by the Secretary of Commerce, primarily because the 
range of these species extends over five regional fishery 
management council areas. Secretarial management also eases 
U.S. participation in international HMS conservation programs 
and establishment and negotiation of U.S. positions at meetings 
of the International Commission for the Conservation of 
Atlantic Tunas (ICCAT), the 28-member organization charged with 
overseeing the science and management of tunas and tuna-like 
species.
    Atlantic swordfish are harvested by a number of nations and 
currently are designated by ICCAT as overfished. The annual 
U.S. share of landings from the North Atlantic swordfish stock 
is only about 25 percent of the total harvest. Consequently, we 
must work with other nations to eliminate overfishing and 
rebuild the swordfish stock. Through ICCAT, we have worked to 
achieve international cooperation and adequate monitoring and 
compliance. The United States plays a key role in encouraging 
multilateral management measures for swordfish as well as other 
ICCAT species. At the recent ICCAT meeting in Rio de Janeiro, 
the Commission adopted a number of actions to strengthen 
international conservation efforts. Most notably, ICCAT nations 
committed to a 10-year rebuilding program for swordfish. While 
the rebuilding program requires only slight reductions in total 
quotas over the next three years (approximately 15 percent), 
the agreement counts all the harvest, including discards of 
dead swordfish, against the total allowable catch for the first 
time. Counting dead discards against the total quota could be 
an important additional incentive for fishermen to avoid 
catching undersized swordfish.
    Our progress on the international front would not have been 
possible without the strong support of U.S. commercial and 
recreational fishermen, environmental groups and others. 
Pelagic longline fishermen were very supportive of the 
rebuilding program, despite the reductions in their landings 
that the program would entail. Responding to concern over the 
catch and harvest of undersized swordfish, the United States 
also was successful in sponsoring a resolution that called for 
ICCAT to analyze and consider the use of time and area closures 
throughout the Atlantic. Finally, I would like to note that 
ICCAT adopted a binding recommendation that countries ban the 
imports of Atlantic swordfish from Belize and Honduras.
    Consistent with our ICCAT responsibilities, the Magnuson-
Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act) requires that NOAA Fisheries take action to manage 
the fishery within U.S. waters. Two years ago, NOAA Fisheries 
established advisory panels under new provisions of the 
Magnuson-Stevens Act. With the assistance of these panels, in 
April 1999 NOAA Fisheries completed a new HMS fishery 
management plan (HMS Plan) and amended an existing fishery 
management plan for billfish. These new plans were among the 
first to be implemented under the new requirements of the 
Magnuson-Stevens Act and included management measures to 
identify and rebuild overfished HMS stocks, minimize bycatch, 
limit access to the pelagic longline fishery for HMS, and 
address socioeconomic impacts on fishermen and their 
communities.
    Pelagic longlines are the primary commercial gear type in 
the HMS fisheries of the Atlantic, including the Gulf of Mexico 
and Caribbean. The longline fishery thus provides an important 
source of seafood for the American consumer. However, like most 
types of fishing gear, it unintentionally catches species and 
sizes of fish that, for reason of regulation or economic 
choice, are thrown back into the sea. Some of this bycatch can 
be released alive, but significant amounts are discarded dead. 
While dead discards in the pelagic longline fishery have 
declined over the past decade, concerns remain about bycatch 
levels, particularly of juvenile swordfish, billfish, bluefin 
tuna, and sharks. In addition, NOAA Fisheries must address the 
incidental catch of endangered species such as sea turtles. 
Over the past three years an average of 487 mt of Atlantic 
swordfish (about 13 percent of the total catch) and an average 
of 58 mt of bluefin tuna (just over 4 percent of the total of 
the bluefin fishery) were discarded dead.
    The Magnuson-Stevens Act requires that bycatch be minimized 
or avoided to the extent practicable. The draft HMS Plan 
released in October 1998 addressed this requirement by 
proposing a number of measures, including time and area 
closures for pelagic longline gear designed to reduce bycatch 
of bluefin tuna, juvenile swordfish, and billfish. Initial 
analyses focused on areas with high discards of juvenile 
swordfish and bluefin tuna based on logbook data submitted by 
fishermen. They led to a proposal for a June closure off the 
mid-Atlantic Bight to protect bluefin tuna and a closure in the 
Florida Straits to protect small swordfish. During the public 
review process, NOAA Fisheries received comments from 
recreational and environmental constituents, as well as some 
commercial constituents, that the proposed Florida Straits area 
was too small to be effective. Consequently, the final HMS Plan 
included a mid-Atlantic Bight closure but did not include the 
proposed closure for the Florida Straits. When the HMS Plan was 
published, NOAA Fisheries made a commitment to develop a new 
proposal to reduce swordfish bycatch, including time and area 
closures, before the end of 1999.
    To fulfill this commitnent, NOAA initiated additional--and 
more extensive--analyses of logbook data in May 1999. The 
results of these analyses were shared with HMS Advisory Panel 
members at a joint meeting in June 1999. At the same meeting, a 
coalition of recreational and commercial fishing interests 
discussed their efforts to develop a legislative package that 
would include both time and area closures and a program to buy 
back Federal permits of longline fishermen affected by the 
closures.
    Shortly after the June meeting of the HMS advisory panel, 
NOAA Fisheries was sued by a number of environmental groups on 
the grounds that the HMS Plan failed to adequately reduce 
bycatch. However, the parties agreed to a stay until May 1, 
2000 of further proceedings in the litigation pending continued 
progress in developing a new regulation to address bycatch.
    NOAA Fisheries completed its additional analyses and 
released a draft technical memorandum in October 1999. This 
technical memorandum was sent to advisory panel members and the 
five regional fishery management councils and to the general 
public upon request. On November 2, 1999, NOAA Fisheries 
published a notice of intent to prepare an environmental impact 
statement, and announced the availability of the technical 
memorandum. In this same Federal Register notice, the agency 
indicated that a proposed-rule on time and area closures would 
be published by December 15, 1999, and a final rule by May 1, 
2000.
    NOAA Fisheries has published the proposed rule, and a 75-
day comment period is currently underway which will end on 
March 1, 2000. During the comment period, NOAA Fisheries will 
conduct 15 public hearings throughout the HMS management 
region, including coastal communities within and outside of the 
proposed closed areas. Once the comments have been compiled and 
considered, NOAA Fisheries will consider management options for 
the final rule.
    The proposed rule includes as a preferred alternative a 
year-round closure off the southeast Atlantic coast and a 7-
month closure (March 1-September 30) in the western Gulf of 
Mexico. In selecting this preferred alternative, NOAA Fisheries 
examined several options, balancing the need to: (1) reduce 
bycatch of undersized swordfish, billfish, bluefin tuna, and 
sharks; (2) minimize reductions in target catches; and (3) 
minimize the effect on other fisheries.

LEGISLATIVE PROPOSALS

    Three bills currently are pending in the House of 
Representatives that address pelagic longlining: H.R. 3331, 
introduced by Rep. Saxton; H.R. 3390, introduced by Rep. Goss 
and Rep. Tauzin; and H.R. 3516, introduced by Rep. Sanford.
    H.R. 3331 and H.R. 3390 are very similar to each other. 
There are some differences, however, primarily related to 
longlining in the mid-Atlantic Bight. Both bills would 
establish: (1) a year-round closure to pelagic longline fishing 
in the South Atlantic seaward of the coast from the northern 
South Carolina boundary to Key West, Florida; (2) two seasonal 
closures in the Gulf of Mexico (an area in the northeastern 
Gulf of Mexico from January 1st to Memorial Day each year and a 
closure seaward of the coast from Mexico to the Florida 
Panhandle that will be closed from Memorial Day to Labor Day of 
each year for five years); and (3) a voluntary program to buy 
out the longline permits of 68 named longline commercial 
vessels ``through a partnership of the recreational and 
commercial fishing industries and Federal funds.'' All vessels 
that participate in the buyout program would be required to 
surrender all commercial fishing permits. The two bills also 
direct NOAA Fisheries to conduct a research program, 
identifying and testing the most effective fishto reduce the 
billfish bycatch in the Atlantic and Gulf of Mexico. In 
addition to the measures above, H.R. 3331 also amends the 
Atlantic Tunas Convention Act to allow the Secretary of 
Commerce to reduce swordfish quotas below ICCAT 
recommendations, restricts effort increases on longliners 
fishing in the Mid-Atlantic Bight, and creates a second 
voluntary vessel buyout category for mid-Atlantic Bight 
commercial longline fishermen.
    H.R. 3516 would amend the Magnuson-Stevens Act to prohibit 
``pelagic longline fishing in the exclusive economic zone in 
the Atlantic Ocean.'' It does not include a buyout as contained 
in H.R. 3331 or H.R. 3390. In the past, NOAA Fisheries has not 
supported unilateral bans on specific gear types, other than 
destructive fishing practices such as large-scale pelagic 
driftnets.
    Similar areas are proposed for closure in the rule and the 
two bills, albeit with some important differences. The South 
Atlantic Bight closure in the proposed rule is larger on the 
northern end to account for the variable location of the 
oceanographic feature of the Charleston Bump. In addition, the 
proposed rule would close the western end of the Gulf, which is 
different from the legislative proposals to close an area along 
the northern Gulf coast.

ANALYSES OF PROPOSED CLOSED AREAS

    NOAA Fisheries has only recently begun to use time and area 
closures as a management tool for this fishery (i.e., the June 
closure in the mid-Atlantic Bight to protect bluefin tuna). 
Analyzing the impacts and effectiveness of time and area 
closures on the Atlantic pelagic longline fleet has proven to 
be challenging because it is difficult to predict changes in 
fishing patterns when the areas are closed. To examine a range 
of possibilities, NOAA Fisheries conducted analyses under two 
different assumptions regarding the fishermen's behavior. The 
biological and socioeconomic effects of the various 
alternatives then were compared using these different 
assumptions.
    The first assumption is that there would be zero effort 
redistribution, i.e., the sets currently made in the proposed 
closed areas would not be made elsewhere. This assumption 
provides estimates of the maximum reduction in bycatch and 
landings of target species, as well as the maximum social and 
economic effects of the proposed time and area closures.
    The second assumption is that there would be a total effort 
redistribution, i.e., the sets currently made in the proposed 
closed areas would be made in other, open areas (distributed 
proportionately to historic effort in the remaining open 
areas). This assumption provides an estimate of the minimum 
expected reduction in bycatch, because fishing effort would 
reoccur somewhere else. This scenario also provides a minimal 
estimate of the possible social and economic impacts of the 
proposed time and area closure.
    The benefits from the time and area closures under the two 
effort redistribution models have been evaluated for the 
proposed rule and for both H.R. 3331 and H.R. 3390. Because the 
areas proposed in the proposed rule and the legislation are 
similar, bycatch reduction benefits are likely to be similar. A 
comparison of the effectiveness of all of the proposals is 
shown in the attached table. These estimates may differ from 
those provided by proponents of the legislation because the 
analyses on which the legislative proposals are based were 
conducted independently and assume zero effort redistribution.
    In the South Atlantic, the impact of time and area closures 
is similar to that for the bills under both no effort 
redistribution and total effort redistribution. In the Gulf of 
Mexico, the time and area closures in the proposed rule may be 
more effective at reducing billfish bycatch than the proposals 
in the bill, again under both effort redistribution scenarios.
    For both the proposed rule and the legislative proposals, 
the net effects will likely be somewhere between the zero 
displacement and the total displacement, although the buyback 
program proposed in the bills would be likely to reduce 
displaced effort. On the other hand, vessels remaining in the 
fishery could become more active and make more sets in the open 
fishing areas. Although limited access is in place in the HMS 
pelagic longline fishery, there is no limit on effort in the 
form of days fished, number of sets, length of the line, or 
number of hooks. However, reduced ICCAT quotas for swordfish, 
and the further reductions engendered by the dead discards 
provisions, should limit the expansion of effort by the vessels 
remaining in the fleet.
    These analyses provide an estimate of the range of 
potential benefits and costs of time and area closures. The 
biological and economic analyses conducted for the rulemaking 
will be very useful for assessing legislative options for a 
buyout. Our analyses show that there are benefits from time and 
area closures even if effort is displaced. At the same time, 
our analyses demonstrate the extent of socioeconomic effects 
associated with the proposed rule, and the need to consider 
mitigating measures, such as a buyout.
    The economic and community effects of the proposed rule may 
be substantial. Losses in gross revenues to fishing vessels 
could be as high as $14 million per year, and examination of 
individual vessel records indicates that up to 20 percent of 
the vessels could lose half their gross income. In addition, 
swordfish dealers could face substantial reductions in the 
total weight of fish they handle. Comments at public hearings 
indicate that the effects would not be confined to the pelagic 
longline fishery; processors and small businesses supplying the 
fleet with bait, ice, and other provisions also would be 
affected. Finally, for those vessel operators remaining in the 
fishery, fishing costs could increase if vessels must go 
farther offshore or relocate as a result of closures.

CONCLUSIONS

    Overall, NOAA Fisheries supports the intent of H.R. 3331 
and H.R. 3390, which is to address bycatch concerns in the 
pelagic longline fishery and to reduce overcapacity and 
economic disruptions that result.
    We would like to work with you to deal with certain 
provisions of the legislation that we cannot support as they 
are currently drafted. While we are still completing our 
legislative analysis, we would like to point out two specific 
areas of concern. As has been mentioned before, the impact of a 
time and area closure is difficult to predict. However, we do 
believe that there will be some redistribution of effort, 
possibly into areas with higher turtle or mammal bycatch. As 
introduced, the bills currently do not provide NOAA Fisheries 
with the flexibility to address increased turtle or marine 
mammal bycatch or other potential conservation issues in the 
remaining open areas. We currently are reviewing possible 
mitigating measures in the event that turtle or marine mammal 
bycatch increases as a result of closed areas.
    We are supportive of an industry-funded buyout. However, 
the costs associated with the implementation of the buyout must 
be considered. The collection of fees from wholesalers and 
recreational fishery participants is labor intensive and 
requires administrative funds. Current fishery management 
responsibilities are already curtailed due to limited personnel 
and financial resources. It would be particularly difficult for 
NOAA Fisheries to fund vessel monitoring systems, and this 
would set a precedent that we would be unable to meet in other 
fisheries. In addition, we would like to see increased 
flexibility with respect to implementing the buyout program and 
other provisions of the legislation if only partial funding is 
available.
    We recognize the enormous effort and unprecedented 
collaboration between commercial fishermen and marine anglers 
in developing these legislative proposals. We applaud the 
efforts of the sponsors to meet conservation requirements and 
minimize adverse impacts on displaced fishermen. I look forward 
to working with you to address our concerns and to enacting 
legislation that we can fully support.
[GRAPHIC] [TIFF OMITTED] T4488.001

[GRAPHIC] [TIFF OMITTED] T4488.002

    Mr. Saxton. Thank you very much. Let me just suggest to my 
two colleagues, as we move through this, if you have a question 
during the time that either myself of Mr. Faleomavaega have 
time, please just jump in.
    Let me begin by asking you, what were the driving or 
determining factors in helping you to reach a decision where 
your proposed area boundaries would be located?
    Ms. Dalton. In the Proposed Rule that we did to implement 
the HMS plan, we had a small area that we proposed for closure 
off the Florida Straits. During the public comment period on 
that Rule, we got a number of comments that the area was not 
adequate, that it was not large enough, that it actually could 
exacerbate bycatch problems.
    So, when we did the Final Rule to implement the plan, we 
made a commitment that we would do some additional analyses and 
develop a new Proposed Rule. This Proposed Rule that we put out 
on December 15th was as a result of those additional analyses.
    Mr. Saxton. I have heard the term ``nursery areas'' used, I 
have heard the discussions about where juvenile swordfish are 
found. Can you discuss those issues with us at this time?
    Ms. Dalton. Basically, what we did is we used the logbook 
information from the fleet--and Rebecca will correct me if I 
make a mistake here--but to look at what we were essentially 
hotspots for bycatch of the species of concern. And, generally, 
for swordfish, that is along the South Atlantic Bight and for 
billfish you have higher concentrations of bycatch in the Gulf. 
And using that logbook information then we tried different 
scenarios of closing different areas to see where we could 
maximize the reduction of bycatch and also minimize the 
reductions in directed swordfish harvest.
    Mr. Saxton. And, therefore, you believe that the areas that 
you have outlined would be the most beneficial from a 
conservation point of view?
    Ms. Dalton. It is actually very hard--if you look at the 
table that is at the end of the testimony, you will see that 
there is a pretty significant range of potential reductions. 
Part of the problem is that it is difficult to deal with the 
issue of displacement, and depending on what you assume happens 
with displacement, you change what your potential conservation 
benefits are.
    Mr. Saxton. Mr. Goss and I have both introduced bills with 
areas that are substantially different than the areas that you 
propose to close, is that right?
    Ms. Dalton. Yes, for the Gulf--it is actually fairly small 
for the South Atlantic.
    Mr. Saxton. Okay, let us talk about the Gulf. I am trying 
to figure out the rationale that you used that is different 
than the rationale that the people who negotiated this area to 
be closed. What is the difference in our approach. Why don't 
you like our approach in the Gulf?
    Ms. Dalton. In the Eastern Gulf, at least based on the data 
that we have, there is less bycatch of billfish species than 
there is in the area further south that we closed. The good 
thing about the proposal that you came up with legislatively is 
that there obviously is going to be a problem with displacement 
in the Gulf.
    Mr. Saxton. The displacement would be greater with your 
approach?
    Ms. Dalton. Well, it is going to be probably greater in the 
Eastern Gulf. You have closed the Eastern Gulf for that period 
of time in your bill. We haven't closed the Eastern Gulf, so 
what you are probably going to end up have happening is you are 
going to have the displacement right to the Eastern part of the 
closed area.
    Mr. Saxton. You were somewhat uncertain in your statement 
about the degree to which displacement might be a problem, is 
that correct?
    Ms. Dalton. Yes.
    Mr. Saxton. Is that because we don't know which fishermen 
might choose to just go out of business--forgetting about the 
bill for a minute--there is no compensation, obviously, in your 
closure plan, so you would assume that some fishermen would 
choose to no longer fish and that some might choose to fish 
elsewhere, perhaps in the Eastern Gulf, is that right?
    Ms. Dalton. Yes.
    Mr. Saxton. Have you done any research whatsoever--I am not 
asking this in a critical way, I am just asking for information 
purposes for the record--is there any way of having a 
guesstimate that without compensation so many boats would stop 
fishing and other boats would fish elsewhere?
    Ms. Dalton. No. Basically, what we did with the two 
assumptions you are assuming that you are at either end of the 
spectrum. If you have zero-displacement, that is assuming that 
no one is going to make any sets at all to make up for the sets 
that they would have made in the closed area, so that would be 
the maximum reduction in their harvest and the maximum bycatch 
reduction.
    The other end of it is if you assume that all of the sets 
are displaced and then you end up with the minimum reductions 
in bycatch, but also the minimum reductions in the total 
harvest.
    Mr. Saxton. And under your plan, displacement would not 
only likely take place in the Gulf, it would also take place in 
the Atlantic?
    Ms. Dalton. Yes.
    Mr. Saxton. And the logical place for the displaced 
fishermen to go in the Atlantic would be in the mid-Atlantic 
Bight, would it not, and further offshore?
    Ms. Dalton. Yes, actually they could go to the mid-Atlantic 
Bight. They could go to the Gulf. They could go to the 
Caribbean and Grand Banks.
    Mr. Saxton. Would it be fair to say that you might expect 
less displacement if there were a viable buyout in place?
    Ms. Dalton. That would be our expectation.
    Mr. Saxton. And because you have difficulty measuring the 
amount of displacement or the number of displaced boats without 
a buyout, it would become somewhat more difficult to measure if 
you did have a buyout?
    Ms. Dalton. Yes. The other thing that the buyout does is it 
reduces--what you find is that you have localized impacts on 
the industry and on coastal communities in these areas where 
you have the closures. So, a buyout would help mitigate those 
localized impacts as well, at least on the fleet. It wouldn't 
deal with some of the problems you have with the distributors 
and the suppliers.
    Mr. Saxton. If you stay for the balance of the testimony--
and I am not sure whether you plan to or not--but if you do, 
you will hear testimony later today that the closed area ought 
to be extended into the mid-Atlantic Bight. Would you comment 
on that thought?
    Ms. Dalton. Let me turn it over to Rebecca.
    Ms. Lent. Thank you, Mr. Chairman. We have tried to lay out 
a number of alternatives in our analyses that support the 
Proposed Rule package, and again we tried to strike a balance 
between reducing that discard and minimizing the impact on the 
target species. We selected what we think is a good balance. We 
are in the process right now of public comment period, and we 
are hearing from folks that maybe we haven't got that balance 
just right. Indeed, there is some concern that as you displace 
the effort, either the boats move, the boats that remain in the 
fishery make more sets than the areas that remain open, we 
might have an impact, and that is why we would be interested in 
being able to follow this year to year. Any time-area closure 
may need adjustment in the future, and there is some concern 
about bycatch rates in the Caribbean and in the mid-Atlantic 
area.
    Mr. Saxton. Thank you very much. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Ms. Dalton, I do 
have several questions that, just for the sake of time, I will 
submit to your office, if you could respond to them 
accordingly, if it is all right. I do have some conceptual 
questions I would like to discuss with you this morning.
    These bills are in place, and we have got the Magnuson Act, 
we have ICCAT. What is your administration's position basically 
on the provisions of these proposals. Do they seem to work 
hand-in-hand with the current aspects of the law under the 
Magnuson Act as well as with ICCAT's function, or do you think 
they go beyond what we are trying to do here? In other words, 
does the administration feel that there are sufficient laws 
that can handle the concerns that have been expressed by the 
provisions of these bills?
    Ms. Dalton. I think our position is that we could 
probably--we certainly support the intent of the legislation to 
deal with the bycatch problem and also to mitigate the impacts 
of the displacement, potential displacement.
    The question of whether we can move forward with this 
administratively, yes, we have a Proposed Rule. We probably can 
do a buyout proposal as well. There is about $10 million in our 
budget proposal for 2001, for fisheries assistants programs. A 
portion of that money could probably be allocated to a buyout, 
if it is appropriated.
    One of the values, though, in the things the administration 
has watched is this whole collaborative process and having the 
recreational industry and the commercial industry work together 
to try to solve the problem, and there is a value in that that 
is very difficult to quantify, but we certainly would like to 
support and encourage.
    Mr. Faleomavaega. Has the administration had an opportunity 
to quantify what the actual costs will be on the buyouts if 
this does become viable? I mean, you mentioned $10 million, but 
I was wondering, this might be a lot more than what we are 
expecting.
    Ms. Dalton. Yes. If you assume that you are going to need 
to have the funding that is authorized to be appropriated, it 
is probably, what, upwards of about $25-30 million.
    Mr. Faleomavaega. When you say ``buyout'', does this mean 
that the fishermen can go to another destination and continue 
fishing, or is he just going to scrap his vessel?
    Ms. Dalton. Well, I think the bills would basically call 
for all of their permits to be removed, and they wouldn't be 
able to participate in any commercial fishing. The boats could 
be used for some other purpose. I don't think there is a 
restriction on their use in a recreational fishery. Or they 
could be used for some other--I don't know--whatever other 
purpose, research or something like that.
    Mr. Faleomavaega. What if you come and fish in the Pacific?
    Ms. Dalton. No, they wouldn't be able--because they would 
lose their fishery endorsements and their documents and their 
permits.
    Mr. Faleomavaega. I was just noticing, the Pacific Ocean is 
a lot bigger than the Atlantic Ocean. I was just curious----
    Mr. Saxton. If I could just state for the record, not only 
would we buy the boats under our proposal, and I believe both 
proposals--I am sorry--we wouldn't buy the vessel, we would buy 
the permits. So, under both proposals, once the buyout 
occurred, the permits would be removed and commercial fishing 
on that vessel would cease.
    Mr. Faleomavaega. But that will not prevent them from 
fishing outside U.S. waters, right?
    Ms. Dalton. There is actually a restriction on their use 
and fishing in foreign fisheries, too, in the legislation.
    Mr. Faleomavaega. There has been a little concern 
expressed, or criticism, about ICCAT's capability of 
maintaining the swordfish. What is the administration's 
position, is ICCAT doing its job, or are they just kind of 
wriding along and not really doing what they are supposed to be 
doing?
    Ms. Dalton. I think that there has been pretty substantial 
progress that was made. At the last meeting, there was 
agreement on a 10-year rebuilding program for swordfish that 
calls for overall reductions in the quota, and also would have 
the dead discards counted against the quota.
    Mr. Faleomavaega. I notice that we have some charts here 
that have been submitted on it, and let me say the National 
Marine Fisheries is a lot more colorful description of the 
latitude, longitude and--in fact, it is quite a difference also 
with both the Breaux and Chairman Saxton's proposals.
    Are you suggesting that in your proposal you are a lot more 
scientific in understanding the nature of the migratory fish as 
to why this whole area between Louisiana and Florida has been 
zeroed-out?
    Ms. Dalton. No. I am told that it was just a printing 
error. It just happened to be printed on our documents but not 
on the other ones.
    Mr. Faleomavaega. That is a big printing error. So this is 
not really the true description of the----
    Ms. Dalton. No, it is a true description. There are 
coordinates that--we could put the same coordinates on the 
other two charts as well.
    Mr. Faleomavaega. You got me on that one. It says here on 
the 90-degree longitude--here, again, I am not a fisherman--but 
between that 90-degree longitude and the whole West Coast of 
Florida is zero. I mean, there is no restriction----
    Ms. Dalton. Oh, okay. I thought you meant just the fact 
that the labels were on here. Yes. The area in the Gulf is 
quite different. And, again, we did it by analysis of the 
logbook data. There is a fairly high level of bycatch in the 
southern area that we closed, so we got a significant bycatch 
reduction by including that area that is further to the south 
of what is in the legislative proposal. There is less of a 
conservation benefit tied to the logbook data that we have in 
the Eastern Gulf.
    Part of what--the other thing that has been interesting in 
the public hearing process is we have gotten a lot of 
commentary on the use of live bait that is tied to the Gulf, 
and the suggestion that you have higher incidence of bycatch 
for billfish whenever you use live bait. So this is one of the 
things that we are going to be looking at as we go back and 
relook at our Proposed Rule.
    Mr. Faleomavaega. Let us talk about bycatch. This is a very 
sensitive issue to me and those of us in the Pacific, and I 
suspect that you have purse seiners also in the Atlantic Ocean 
catching fish in a very unique way, and the fact that there is 
a tremendous amount of bycatch, not necessarily skipjack, but 
you end up with swordfish, sharks, all other varieties of fish, 
which basically in my understanding is just simply discarded 
and not even used at all for any purposes.
    Has the National Fisheries Service made any estimates of 
the value of this bycatch that is caught also in the Pacific as 
well as in the Atlantic? I am told it is in the billions of 
dollars.
    Ms. Lent. I would just mention that in the Atlantic we only 
have five purse seiners, and that we have had observers onboard 
with logbooks, and there is very little bycatch in this 
fishery. They send planes out, they find schools of bluefin, 
they set their net, and there has been very little bycatch 
problem.
    Mr. Faleomavaega. You only have five purse seiners in the 
whole Atlantic Ocean? None from the French? None from the 
Norwegian countries? None from other foreign countries? I can't 
believe that.
    Ms. Lent. I am talking about the U.S. Fleet in the 
Atlantic.
    Ms. Dalton. For highly migratory species. We also have 
purse seiners for menhaden as well.
    Mr. Faleomavaega. What is the estimate of purse seiners 
that we have fishing internationally in the whole Atlantic?
    Ms. Dalton. We can get you the information, but I don't 
have it now.
    Mr. Faleomavaega. I know we have about 35 purse seiners, 
U.S. parceners, that do fishing in the Pacific, and I also know 
that the Korean government recently allocated over $4 billion 
to improve its fishing fleets which now totals about 780 
vessels. And a very serious concern that I have is that these 
governments literally provide funding to subsidize their 
fishing fleet. We don't do that. We are not doing that. And I 
am very, very concerned at the fact of how can it be possible 
for our commercial fishing industry to compete when countries 
like Korea just simply put out $4 billion to upgrade and to get 
a whole new fleet of the most modern technologically purse 
seiners, longliners, they have got it. What do you suggest on 
how we should compete?
    Ms. Dalton. We have been working in various different 
international fora to--we agree with you completely that 
harmful subsidies are a problem in world fishing fleets, and we 
have been working at FAO and also in other international groups 
to try to get international agreement to reduce those 
subsidies.
    Mr. Faleomavaega. This is my concern, Mr. Chairman, and I 
am sure Penny has been made aware of this--we are putting a lot 
of requirements and restrictions on our own fishing industry to 
comply with ICCAT requirements, even what we impose on 
ourselves, but how do we control those foreign fishing vessels 
that have just come right in and taken, and they don't even 
care about complying with the kind of concerns that we have 
about conservation and this type of thing.
    Ms. Dalton. I think it is a problem. There is very little 
that we can do unilaterally. That is the reason we have been 
working within groups like the Food and Agricultural 
Organization to come to agreement on the need to eliminate 
harmful subsidies. As you know, we are also working on an 
agreement in Western Pacific, the multilateral high level 
conference right now that is going on, that will hopefully come 
up with a long-term agreement that will strengthen conservation 
and management in the Western Pacific.
    Mr. Faleomavaega. I can tell you right now, Ms. Dalton, 
that the Japanese do not want any observers on their vessels, 
period. They have been fighting that for years, and they will 
probably continue doing so even in the Atlantic. I am positive 
that the Japanese have a fleet also in the Atlantic and, 
unfortunately, when they get in international waters we don't 
have much to say about that, but it doesn't help our own fleet. 
And I just wanted to express that concern, Mr. Chairman. Thank 
you. I know I have taken too much time.
    Mr. Saxton. Thank you. Mr. Pallone.
    Mr. Pallone. I just wanted to ask Ms. Dalton--and this is 
without prejudice to any of my colleagues because certainly on 
the Republican side of the aisle, Mr. Saxton and Mr. Goss are 
people that I respect and work with, but are you concerned--I 
just wanted to ask you if you are concerned that basically we 
have proposals here--you know, Congress is legislating on the 
matter of the time-area closures for the swordfish. Is your 
position that--do you think that specific management measures 
should be done this way through legislation, or would you 
rather that NMFS and the councils deal with this?
    I guess one of the concerns I would have is the precedent 
that is set. Of course, I love to legislate, too, so I am 
probably not the person that should be asking this, but are you 
concerned about the precedent, or do you feel that you can work 
with this legislation? I mean, it is a little unusual to have 
legislation that comes out at the same time in terms of you 
have a specific proposal and now you have two other members of 
Congress proposing things that are somewhat different and 
somewhat the same, and I just wanted your opinion on that.
    Ms. Dalton. I think it is always preferable to deal with 
things administratively. In terms of the precedent, I think the 
precedent has already been set. We had the American Fisheries 
Act about two years ago that did something that is fairly 
similar to the provisions that are contained in this 
legislation.
    While it may have been congressional management of the 
fisheries that raised people's concerns, it also appears to 
have been fairly successful in addressing overcapitalization in 
the North Pacific, and helping to rationalize that fishery.
    So, I guess while we certainly are worried about 
micromanagement, we are willing to work with you on it and try 
to make sure that whatever you decide to do is the best thing 
both from a conservation perspective and also to benefit the 
fishery itself.
    Mr. Pallone. I will just keep a note, Mr. Chairman, so that 
the next time when I propose some legislation and NMFS doesn't 
like it, I will just remind them of what Ms. Dalton said. Thank 
you.
    Ms. Dalton. We are happy to work with you.
    Mr. Saxton. Penny, before you go, may I just follow up on 
Mr. Pallone's questions. I know that you are not creating a 
buyout program with the regulations, as proposed. Can you 
create a buyout program through regulations?
    Ms. Dalton. We have a Proposed Rule that is winding its way 
very slowly through the administrative process--actually, it is 
the Final Rule--that would provide the guidelines for doing 
buyout programs generally under Section 312 of the Magnuson-
Stevens Act.
    We probably could do that. Our primary limitation is at the 
present time we don't have any funding to do it, and there are 
two ways of doing that. If you do a direct Federal payment on 
it, it obviously requires a substantially higher appropriation. 
You also could do an industry-funded program that you could do 
by allowing the industry to take out a loan. What you are doing 
in your legislation is a combination of both of those things. 
We could probably do it administratively.
    Mr. Saxton. You could probably do it administratively with 
the tools you have?
    Ms. Dalton. If we had the funding, but we don't have the 
funding either.
    Mr. Saxton. I am sorry, but we have to get the funding for 
our proposal, too. I mean, if Congress has the will to 
appropriate for a new statute, then why wouldn't Congress have 
the will to appropriate for a regulation? What is the 
difference?
    Ms. Dalton. I think control of the conditions that the 
buyout is made under.
    Mr. Saxton. Why did you decide not to propose a rule for a 
buyout?
    Ms. Dalton. I don't think that we made a decision not to 
propose a rule for the buyout. The Proposed Rule, as it 
currently is stated, does not have mitigation for the socio-
economic impacts. One of the things that we are going to have 
to do in receiving public comment on that rule is go back and 
balance. I don't know what we will finally come out with on it.
    At this point, the administration budget that just came out 
doesn't contain funding for doing a buyout for this fishery, 
other than that general financial assistance program that is 
intended to be used on a national basis.
    Mr. Saxton. When will this Proposed Rule be final?
    Ms. Dalton. May 1.
    Mr. Saxton. And on May 1 then, you would anticipate that 
these areas proposed by this rule will be closed, is that 
right?
    Ms. Dalton. Well, we will finalize the Rule. What we do in 
terms of the implementation is another issue. There will be at 
least a 30-day cooling off period.
    Mr. Saxton. That is a good term. What do you anticipate 
will happen at the end of the 30-day cooling off period that 
you just mentioned?
    Ms. Dalton. Some sort of closure would go into effect 
unless the Rule is somehow modified to phase it in. One of the 
things that we have looked at, I don't think there has been any 
decision on. What we have done in some areas where we know that 
there is going to be a substantial economic impact is we have 
phased in closures or phased in the regulations. We have done 
that in some of the New England fisheries to help mitigate 
those impacts. But the Rule would go into effect then under 
whatever conditions we impose.
    Mr. Saxton. Just to change thoughts for a moment, have you 
done any kind of an analysis to determine localized socio-
economic impacts?
    Ms. Dalton. Excuse me?
    Mr. Saxton. Have you done any kind of analysis to determine 
localized socio-economic impacts?
    Ms. Dalton. Let me turn that over to Rebecca.
    Ms. Lent. We have made an attempt, based on the addresses 
of permit holders, to localize the community and identify the 
communities that would be most affected. We have, of course, 
looked at every single boat and every single fish they catch 
and tried to say what if they lost all those sets and what is 
the economic impact. We have the home address. One of the 
challenges of looking at the socio-economic effect is that the 
boats move around to follow the fish. You might have a boat 
that is in New England part of the year, and it comes down to 
Florida part of the year. It has been a challenge, but we have 
made an attempt to do that, and we are trying to get more 
information through our public comment process.
    Mr. Saxton. Just back to the displacement issue for a 
moment, would it surprise you to learn that some New Jersey 
marina owners have been contacted by longline fishermen from 
the southern part of the Atlantic for dockage?
    Ms. Dalton. No.
    Mr. Saxton. It wouldn't surprise you?
    Ms. Dalton. No.
    Mr. Saxton. I guess I have no further questions at this 
time. Mr. Faleomavaega, do you have any follow ups?
    Mr. Faleomavaega. Just one short one. Ms. Dalton, has your 
office found any provisions of the Magnuson-Stevens Act that 
runs contradictory to the proposed legislations, or any 
provisions of the Magnuson-Stevens Act that is contrary to any 
provision that has been proposed here?
    Ms. Dalton. I am trying to think if there is any. I don't 
think there is any direct contradiction that I can think of.
    Mr. Faleomavaega. Leave it to the National Marine 
Fisheries, they will find something.
    Ms. Dalton. One of the things in Mr. Saxton's bill, he 
amends the underlying statute. So, that obviously is a change 
from what is in the law right now.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you very much, Ms. Dalton, for being with 
us this morning. We always enjoy having you here, and I hope we 
weren't too tough on you today. We didn't try to be, anyway.
    Mr. Saxton. Moving on to the next panel, we have Mr. Glenn 
Roger Delaney, who represents the Blue Water Fishermen's 
Association and who is also a Commissioner to ICCAT; Mr. 
Michael Nussman, who is Vice President of the American 
Sportfishing Association; Mr. Robert G. Hayes, who is General 
Counsel of the Coastal Conservation Association; Mr. Ernest 
Panacek, who is Manager of Viking Village in Barnegat Light, 
New Jersey, a town and an organization which I am very familiar 
with; Mr. Richard Stone, Science Advisor to the Recreational 
Fishing Alliance, RFA; Mr. Gary Caputi, who is Co-Chairman of 
the Highly Migratory Species Committee and is a member of the 
Jersey Coast Anglers Association; and Dr. David Wilmot, 
Executive Director, Living Oceans Program of the National 
Audubon Society.
    Obviously, there are a lot of members on this panel, so I 
would like to just remind you that we try to observe a five-
minute rule for your testimony, and that your written testimony 
will certainly be included in the record in its entirety.
    Mr. Delaney, you may begin at your leisure.

 STATEMENT OF MR. GLENN ROGER DELANEY, BLUE WATER FISHERMEN'S 
           ASSOCIATION AND U.S. COMMISSIONER TO ICCAT

    Mr. Delaney. Thank you, Mr. Chairman. I may be your first 
violator of the five-minute rule, but I will do my very best.
    Members of the Subcommittee, for the record, I am Glenn 
Delaney, Consultant to the Blue Water Fishermen's Association. 
I also serve as the U.S. Commissioner to ICCAT, representing 
the commercial fishing industry.
    Mr. Chairman, our industries have certainly brought many 
problems to you over the years, but it is rare that we bring to 
you a solution, real solution, that has been hammered out in 
advance by the mainstream of the core constituencies, a 
solution that respects U.S. fishery policy, is based on sound 
science, and achieves major conservation objectives while 
addressing the social, economic and political realities of 
fisheries management. That is what I think we have done here, 
Mr. Chairman.
    Our proposal, which is fully reflected in H.R. 3390 and 
which is at the core of your bill, is first and foremost about 
conservation. Our proposal used the best available science to 
identify true hotspot concentrations of bycatch in order to 
design vast time-area closures where 52 percent of the small 
swordfish and 31 percent of the billfish bycatches occur in 
U.S. waters.
    Our proposal includes a buyout designed with the help of 
NMFS' economists that both minimizes displacement and provides 
a reasonable opportunity for those fishermen put out of 
business to restructure their lives, but that is not all. The 
buyout also substantially increases the bycatch conservations 
of this bill. The 68 vessels eligible for the buyout account 
for at least 65 percent of the total small swordfish bycatch, 
56 percent of the blue marlin bycatch, 37 percent of the white 
marlin bycatch, and 47 percent of the sailfish bycatch in the 
U.S. EEZ. The conservation potential of this buyout is 
enormous. Finally, our proposal invests in future gains in 
bycatch conservation by establishing an important research 
program in the Gulf and Atlantic.
    As well conceived as we think this proposal is, it is, as 
you can imagine, based on a very delicate agreement. Many 
months of negotiations and compromise have produced what is 
perhaps the only balance that could be struck between these 
groups. We are very apprehensive about changes that might have 
the effect of causing this unusual, perhaps once in a lifetime, 
opportunity to slip away.
    As you explained before introducing your bill, Mr. 
Chairman, you chose to include for the purpose of discussion 
certain provisions that are in addition to those that we 
recommended. I hope you will receive my comments in that spirit 
and understand that they are given with the sincere purpose of 
providing our best possible advice.
    There are three issues that I would like to cover. I think 
I will probably run out of time, but I will start with buyouts. 
In theory, policy supporting the use of buyouts to achieve 
special resource and economic objectives is well established in 
the Magnuson-Stevens Act, particularly in section 312(b) of 
National Standard 8.
    I would just interject here that our analysis of section 
312(b) does not provide NMFS with the authority to establish a 
buyback for highly migratory species which, as you know, are 
treated differently under the Act than council managed species, 
and I would just note that difference.
    In practice, it has been Congress that has developed 
buyouts with extensive industry input to address several unique 
circumstances that have developed in fisheries in recent years. 
I believe our proposal is entirely consistent with this policy 
and with this precedent. The bottom line is that the 
conservation benefits of our proposal could not be achieved 
without this particular buyout program, period. It remains one 
of the fundamental reasons why we believe this proposal can 
succeed.
    In contrast, Blue Water has expressed serious difficulty 
with the second mid-Atlantic buyout proposed in Section 7(k)(1) 
of the Chairman's bill. Buyouts represent an extraordinary 
solution to an extraordinary resource and economic problem. 
Buyouts need to have a very compelling purpose. Buyouts need to 
be widely supported from within the affected industry.
    While we feel that the purpose of the first buyout related 
to the impacts of the time-area closures is compelling, it is 
not as clear to Blue Water what the purpose is of the mid-
Atlantic buyback.
    First, it is not associated with the impacts of a time-area 
closure.
    Second, the U.S. longline industry is not overcapitalized, 
so the purpose cannot be to mitigate the economic impacts of 
overcapitalization, as Congress did in the Bering Sea pollock 
fishery through the American Fisheries Act.
    Third, the pelagic longline fishery has not experienced a 
resource collapse or conservation crisis, as was the case 
underlying the New England groundfish buyout.
    Blue Water respectfully, but strongly, recommends against 
the establishment of the second mid-Atlantic buyout.
    The second issue I would like to cover is unilateral 
action. Mr. Chairman, I included on page 10 of my written 
submission a statement you made on the House Floor in October 
of 1990, when you helped champion the addition of section 
6(c)(3)(K) to the Atlantic Tunas Convention Act. This provision 
restricts U.S. unilateral action when implementing ICCAT 
conservation measures.
    Mr. Chairman, your statement may be the most coherent 
explanation that I have ever read of why this provision is now 
a cornerstone of U.S. policy regarding the international 
management of highly migratory species. Your statement and this 
provision reflect the core of U.S. policy and the fundamental 
truth that no nation can effectively conserve and manage these 
unique fish through a unilateral strategy. Instead, 
international cooperation throughout the range of these 
fisheries is essential to both successful resource conservation 
and to the fair treatment of U.S. fishermen.
    Mr. Chairman, since you made that statement on the House 
floor, absolutely nothing has changed that would justify a 
change in U.S. policy or an amendment to that provision. So, we 
strongly urge you to drop section 7(k)(3) of your bill. I would 
make the same recommendation to you regarding the closely 
related provisions set forth in section 7(k)(2) of your bill, 
which would require the Secretary to make unilateral reduction 
in the U.S. quota of swordfish.
    I think my time has expired. I did want to address the 
issue of displacement, and I would be happy to outline some of 
the reasons why we feel displacement will not be a problem 
under a proposal, and perhaps in response to a question, Mr. 
Chairman, or I can simply continue at this time, whatever your 
preference is.
    Mr. Saxton. In light of the fact that we have a number of 
witnesses, let us move on and we will try to get to those 
issues during the question-and-answer period.
    Mr. Delaney. Very good, sir. I would just like to wrap up 
and thank you for your tireless attention to the unusually 
complex challenges that we face in the management of Atlantic 
highly migratory species and, in particular, I appreciate 
making your staff consistently available to contribute to our 
efforts at ICCAT. Thank you very much.
    [The prepared statement of Mr. Delaney follows:]
    [GRAPHIC] [TIFF OMITTED] T4488.003
    
    [GRAPHIC] [TIFF OMITTED] T4488.004
    
    [GRAPHIC] [TIFF OMITTED] T4488.005
    
    [GRAPHIC] [TIFF OMITTED] T4488.006
    
    [GRAPHIC] [TIFF OMITTED] T4488.007
    
    [GRAPHIC] [TIFF OMITTED] T4488.008
    
    [GRAPHIC] [TIFF OMITTED] T4488.009
    
    [GRAPHIC] [TIFF OMITTED] T4488.010
    
    [GRAPHIC] [TIFF OMITTED] T4488.011
    
    [GRAPHIC] [TIFF OMITTED] T4488.012
    
    [GRAPHIC] [TIFF OMITTED] T4488.013
    
    [GRAPHIC] [TIFF OMITTED] T4488.014
    
    [GRAPHIC] [TIFF OMITTED] T4488.015
    
    [GRAPHIC] [TIFF OMITTED] T4488.016
    
    [GRAPHIC] [TIFF OMITTED] T4488.017
    
    [GRAPHIC] [TIFF OMITTED] T4488.018
    
    [GRAPHIC] [TIFF OMITTED] T4488.019
    
    Mr. Saxton. Thank you.
    Mr. Nussman.

  STATEMENT OF MR. MICHAEL NUSSMAN, VICE PRESIDENT, AMERICAN 
                    SPORTFISHING ASSOCIATION

    Mr. Nussman. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today and to testify on behalf of the 
American Sportfishing Association. ASA is a non-profit trade 
association that represents 500 members of the sportfishing 
industry. Besides working for that group, I also serve as the 
U.S. Recreational Commissioner to ICCAT.
    Today, I am going to comment on the entire variety of bills 
that have been laid out before you, as well as the NMFS 
proposal that has been discussed previously.
    Billfish--and by that I mean blue marlin, white marlin and 
sailfish--as well as swordfish are important recreational and 
commercial species. Unfortunately, in the Atlantic, each of 
these species is overfished. Billfish are at about 25 percent 
of the level necessary to provide and sustainable yield, while 
swordfish are at around 65 percent of that level.
    Having said that, the outlook for one of these stocks, 
swordfish, is improving. The last stock assessment completed in 
the fall shows the stock has stabilized--and, in fact, may be 
recovering--due in large part to international and domestic 
quota cuts taken over the last five years.
    Even more promising, late last year ICCAT agreed to a 10-
year rebuilding plan for swordfish. As a part of that plan, 
U.S. swordfish quotas will be cut by 7 percent this year, and 
that will increase to 12 percent by the year 2002.
    Now, with this background, I think it is important to 
understand why ASA, along with the Coastal Conservation 
Association and the Billfish Foundation agreed to work together 
with Blue Water on a concept that has become H.R. 3390, and in 
large measure your bill, H.R. 3331.
    From a recreational perspective--and I mean that both from 
the industry perspective as well as the angler perspective--our 
goal is a very simple one. We want to improve recreational 
fishing.
    So, despite the fact that we have swordfish on a reasonable 
path to recovery, we all know that billfish are still in 
significant trouble. Further, we recognize that the single 
largest source of billfish mortality in U.S. waters is longline 
bycatch. So, collectively, our groups came together. We took 
the best scientific data and identified areas that had the 
highest bycatch-to-targeted catch ratio and we proposed to 
close them.
    Next, the groups agreed to cooperate in a buyout of 
longline vessels that spent a significant amount of time 
fishing in these areas. From our perspective, there are two 
good reasons to do this. First, we are taking these fishermen's 
livelihoods from them, and equity dictates that they be 
compensated.
    Second, despite the quota reductions I spoke of earlier, if 
these vessels are not retired, their effort could be displaced 
elsewhere, and this displacement could, in fact, have 
unintended consequences which we can't predict.
    Each of the groups involved realize that this effort, while 
an important and critical first step, will not be the final 
answer in restoring our fish populations to healthy levels. So, 
we have included a research program to improve data on bycatch 
associated with longline fishing. This three-year effort, 
signed off on by all parties, will yield important information 
upon which to base future management decisions.
    Finally, Mr. Chairman, despite the ICCAT quota reduction 
and the buyout contemplated by the legislation, some have 
raised concerns that longline vessels will be displaced to 
other areas. To address this issue, both your bill and H.R. 
3390 require aggressive monitoring in the mid-Atlantic, an area 
where any possible displacement could, in fact, occur.
    This monitoring will be accomplished by increasing the 
level of observer coverage and by mandating use of vessel 
monitoring system. Further, the bills require NMFS to take 
action if displacement is found to be affecting recreational 
fishing.
    With regard to the rule proposed by the National Marine 
Fisheries Service, we compliment the agency for its hard work 
and note that the proposed areas, while different in some ways, 
are, in fact, fairly similar to the areas that we propose.
    Unfortunately, the agency does not at this time have all 
the tools needed to complete its work. NMFS' proposal, because 
it lacks a buyout, actually encourages displacement of longline 
effort outside the closed area because it leaves the displaced 
boats in business. NMFS acknowledges that this displacement is 
likely to occur and, in fact, will result in increased bycatch 
of blue and white marlin, both species that are significantly 
depressed. We believe that would be a disappointing outcome for 
such a significant proposal as we have on the table today.
    In concluding, Mr. Chairman, I believe that of the bills 
being considered here, H.R. 3390 has the broadest support. I 
would say that it is not a perfect bill but, in fact, few bills 
are. With that understanding, I would urge you to move it 
forward. I appreciate the opportunity to testify, and look 
forward to answering any questions. Thank you.
    [The prepared statement of Mr. Nussman follows:]
    [GRAPHIC] [TIFF OMITTED] T4488.020
    
    [GRAPHIC] [TIFF OMITTED] T4488.021
    
    [GRAPHIC] [TIFF OMITTED] T4488.022
    
    [GRAPHIC] [TIFF OMITTED] T4488.023
    
    [GRAPHIC] [TIFF OMITTED] T4488.024
    
    [GRAPHIC] [TIFF OMITTED] T4488.025
    
    Mr. Saxton. Thank you.
    Mr. Hayes.

  MR. ROBERT G. HAYES, GENERAL COUNSEL, COASTAL CONSERVATION 
 ASSOCIATION, AMERICAN SPORTFISHING ASSOCIATION, THE BILLFISH 
                           FOUNDATION

    Mr. Hayes. I am here today as the General Counsel for the 
American Sportfishing Association, the Coastal Conservation 
Association and the Billfish Foundation. I want to address 
three issues that have been raised here this morning, and three 
issues that I think are important to the passage of this bill.
    The first one is, why legislate? Why do we need to do this 
in Congress? There are three very fundamental reasons, in my 
view. The first, Glenn has already indicated, there is a 
question whether there is authority under the Magnuson Act to 
do a buyout through the National Marine Fisheries Service. That 
is an obvious question.
    The second thing is that the buyout that is envisioned in 
the Magnuson-Stevens Act doesn't allow recreational fishermen, 
who clearly could be the beneficiaries of a buyout, to 
participate.
    And the third reason is that there are a number of 
decisions that have been made here, because this is a 
compromise, which might not be the most perfectly 
scientifically supported compromise that could be used here. 
Let me give you the best example.
    The question was raised about the Gulf of Mexico. The 
administrative proposal essentially is to close the entire EEZ 
off the State of Texas. That will essentially displace 35 to 40 
longliners who now reside in the State of Texas and would have 
to go to the upper Gulf.
    Our purpose in designing the line the way in which we 
designed it was to ensure that there would not be any 
displacement of longline vessels from the Gulf of Mexico 
because, if we were going to displace them, that would increase 
the cost and increase the buyout.
    Our concept here is to minimize displacement, but provide 
the greatest, broadest lateral benefit to recreational 
fishermen in the Gulf. That was the basis of the negotiation. 
Frankly, the proposal by the National Marine Fisheries Service 
would have to be essentially to close the entire Gulf, if it 
was going to benefit recreational fishermen. If you close the 
entire Gulf, it is obvious at that point that you are going to 
displace 100 vessels out of the Gulf of Mexico, clearly 
something that we were trying to avoid.
    The second thing I want to talk about is the question of 
why legislate. What we are trying to avoid here was litigation. 
There has been a lot of discussion about the possibility of 
proceeding administratively with the closure and then having 
the buyout.
    Frankly, it is our belief that if you do not couple the two 
together, that you are going to put yourself into Federal 
District Court someplace and we are going to be involved in 
litigation for years over whether these are the right areas, 
whether the science supports them, whether the displacement is 
accurate, whether the buyout plan ultimately developed by the 
National Marine Fisheries Service is fair.
    What that leads us to believe is that we were talking about 
a five-year process under the administrative approach. We think 
all of that can be avoided by the bills that we have agreed on 
and have brought to you.
    The second thing I want to talk about very briefly is this 
research program. The research program here is, to the 
recreational community, one of the jewels of this legislation. 
What we are asking Congress to do is fund a research program 
not for the National Marine Fisheries Service, but to fund a 
program that allows scientists from the environmental 
community, from the recreational community, and from the 
commercial community, to come together and design a system in 
which we can prove to each other whether there are available 
bycatch reduction mechanisms that can be put in place here in 
the United States. That research program should lead us to a 
practical, logical, scientifically supported form of management 
free for five years down the line.
    The last thing I want to talk about, and I am going to do 
it very briefly, is I want to talk about this issue of what do 
we do internationally. I was intrigued by the comments that 
there was more than one longline fleet and parcener fleet out 
floating around in the Atlantic Ocean. This program that we 
have put forward--closed areas, reducing fleet size, looking at 
research, looking at alternative ways of reducing bycatch--we 
want to take this concept internationally. I think we could 
even take it to the Pacific Ocean because, if it works, it 
works on every vessel.
    And then the question becomes, do we have the domestic 
willpower and the presence to go to international organizations 
and get them to buy these kinds of closed areas and 
scientifically proven bycatch reduction systems? I think we do, 
and I think for all of those reasons it is important to support 
these bills and move them forward. Thank you.
    [The prepared statement of Mr. Hayes follows:]
    Mr. Saxton. I am glad you said ``support these bills''. 
That is very good.
    Ernie Panacek.

Statement of Mr. Robert G. Hayes, General Counsel, Coastal Conservation 
Association, American Sportfishing Association, The Billfish Foundation

    Good morning Mr. Chairman:
    My name is Bob Hayes, and I am the General Counsel for the 
Coastal Conservation Association (``CCA''), The Billfish 
Foundation (``TBF'') and the American Sportfishing Association 
(``ASA''). This morning I'd like to focus my testimony on three 
areas. First, I would like to tell you a little about CCA and 
TBF. Second, I would like to tell you about how some of the 
policy decisions in H.R. 3390 were made, and third, I would 
like to address the particulars of the bill itself.
    The Coastal Conservation Association is the leading marine 
recreational fishing group in the United States. Formed by a 
small group of sportfishermen in Houston in 1978, CCA has grown 
to a fifteen-state operation with over 70,000 members. Each of 
our states operates somewhat independently, focusing on issues 
in the state that are important to marine recreational 
fishermen. However, like so much in fisheries management, 
conservation issues encompass a regional and national 
perspective; therefore, CCA learned long ago that Federal and 
international fisheries management were just as important to 
the local marine recreational fishermen as the conservation of 
the most local fish population.
    CCA pursues conservation policies set by our state and 
national Boards of Directors. These boards are made up of 
active volunteers concerned about the health of the nation's 
fisheries. CCA has been active in a number of conservation 
issues in the last twenty years, including: all of the east and 
Gulf coast net bans; gamefish status for redfish, speckled 
trout, tarpon, striped bass, river shad, marlins, spearfish and 
sailfish; and the reduction of bycatch through the use of 
closed areas and technology. We have also pushed for the 
improvement of the management system through the restructuring 
of state and Federal management systems, the elimination of 
conflicts of interests by decision-makers, and the active 
involvement of our membership in the management process.
    TBF began as a result of a concern by a group of offshore 
fisherman that scientific emphasis on billfish was inadequate 
to develop meaningful conservation measures. From its inception 
TBF has taken the leadership role nationally and 
internationally in the development of science to recover 
billfishes. As that science has developed, TBF has expanded its 
advocacy role to include both domestic and international 
management of billfishes.
    Today, TBF has members from all over the world and works 
cooperatively with tournaments and other groups interested in 
the conservation of billfishes. Like CCA, it is a board driven 
policymaking body that hires professional staff to implement 
the policy.

The four guiding principles.

    Legislation like the kind being proposed can't be developed 
without some guiding principles. Four have been used by the 
parties to the MOU that lead to the Saxton and Goss bills under 
consideration today.

Sound science, not emotion, should be the basis of fishery 
management decisions.

    The National Marine Fisheries Service and The Billfish 
Foundation developed the underlying science for all of the 
bills dealing with HMS. Dr. Phil Goodyear, in his published 
report, found that there were areas of the Gulf of Mexico and 
the Southeast coast that if closed to longlining would reduce 
the bycatch of billfishes and small swordfish. The data and 
conclusions in that study form the basis for the NMFS proposal. 
It is not suprising that they are very similar, especially on 
the East Coast. The bill's unified approach to closing these 
areas demonstrates the value of sound science.
    Longline bycatch is not one of those areas where the 
science is abundant. Therefore, the bills establish a 
scientific research program to determine ways to further reduce 
bycatch in the longline fishery. That scientific analysis will 
give Congress, fishery managers and the public a better 
understanding on which to base future decisions.

There has to be a benefit to all parties to make this work.

    Not every group will get what it wants when this 
legislation goes into effect. Deals like this one are extremely 
complicated because of the diversity of the fishery and the 
lack of legislative authority to do what needs to be done. The 
recreational fishing community got into this because we wanted 
to improve billfishing. To do that, we had to address the 
single largest source of mortality in U.S. waters--longline 
bycatch. The longline fishery is extremely complicated. It is 
managed by the states, the Federal Government and by an 
international body. It is not monolithic. There are tuna and 
swordfish fleets and mixes of the both. They fish year round 
all over the Atlantic Ocean. Universally, they have said to us 
that they want to address the same problem we do, but they 
don't want to go out of business doing it.
    The Goss bill tries to balance the interests of the fleet 
with the interests of the fish that recreational fisherman want 
to catch, and for the most part, release. The buyout program 
will clearly benefit the fleet by reducing competition and 
making the remaining fleet more viable. The closed areas will 
also benefit the fleet by reducing small swordfish catches and 
helping them accommodate the new ICCAT rebuilding plan. The 
closed areas will be a tremendous benefit for recreational 
anglers. Not only will they improve billfish catches, but also 
it will improve the catch of mahi mahi and wahoo. In addition 
it will reduce the conflicts between these gears, which has 
lead to many of the emotional confrontations with the longline 
fleet.

The beneficiaries of the bill have to contribute to the cost.

    One of the earliest votes taken by CCA, TBF and ASA on the 
negotiation was whether we as recreational fishermen were 
willing to pay for some of the buyout of the longline fleet. 
The vote was unanimous. These groups operate on a principle 
that we are willing to put our money where our conservation 
mouths are. There are number of instances in which recreational 
fisherman have participated in the buy-out of gear and licenses 
through the contribution of funds. As an example in Louisiana, 
we supported legislation that placed a surcharge on 
recreational fishing licenses to provide funds for commercial 
fishermen impacted by the net ban. In Texas CCA made direct 
contributions to the state to buy-out bay shrimp licenses. The 
tackle industry has been making contributions to improve 
fishing for years through Wallop-Breaux. Putting money up to 
improve fishing is not new for the recreational sector. We look 
at resource issues to determine what gains can be made and how 
those gains will improve recreational fishing. We are not 
willing to stand back and avoid achieving improvements because 
someone else is responsible for the damage. We are willing to 
pay because we are getting a benefit.
    The commercial industry is also willing to pay because of 
the benefit they are getting.

Minimize displacement of the remaining fleet.

    Displacement of the remaining longlining fleet--the 
unintended moving of the fleet from one place to another--has 
been a concern of all four groups from the beginning of our 
discussions. We have tried to minimize the impact on other 
areas of the country. As a result, we decided early on that 
none of the bought out vessels could be used in any other 
commercial fishery. We concluded in the Gulf that the closed 
area had to be designed to allow the existing fleet to remain 
in place albeit further offshore. We concluded that the buy 
down of the fleet had to be large enough to ensure that a 
minimum amount of displacement in the mid-Atlantic would occur. 
We think the provisions of the Goss bill do that and protect 
other fisheries and regions from any displacement.

H.R. 3390

    CCA, TBF and ASA got involved in this issue through the 
BlueWater Fishermen's Association (``BWFA''). BWFA wanted to 
explore reducing the bycatch of billfish through closed areas 
if there were support for a buyout of the smaller vessels in 
the fleet. We were very interested in this concept. Our Boards 
met three times on this issue and concluded that the approach 
taken in the Goss bill was not only the right approach for the 
resource, it was the only way we could accomplish our basic 
conservation goals. As a result, they instructed me to enter 
into negotiations with BWFA and to build a coalition of other 
like-minded conservation groups. These negotiations led to a 
Memorandum of Understanding among CCA, BWFA, the American 
Sportfishing Association and The Billfish Foundation, which was 
signed in August. The MOU contained many of the principles 
found in your legislation and formed the basis for the working 
relationship the participating groups have today. Each of the 
parties to the MOU still support it, because each of the 
parties knows this is the only way to get a bill like this one 
passed.
    The bill we support, H.R. 3390, does the following:

    1. Permanently closes an area from the North Carolina/South 
Carolina border to Key West, Florida, to all pelagic 
longlining.
    2. Permanently closes an area off the Gulf coast from 
Panama City, Florida, to Mobile, Alabama to longlining from 
January through Labor Day.
    3. For five years after enactment, it closes an area in the 
Gulf from Cape San Blas, Florida to Brownsville, Texas, from 
Memorial Day to Labor Day from the beach out to at least 500 
fathoms.
    4. Provides for a three-year research program with the 
longline fleet to determine ways to further reduce bycatch by 
longliners. This research will provide the basis for a 
permanent solution for longline bycatch, not only in the U.S., 
but in all Atlantic waters. These measures can be implemented 
at any time by either NMFS or the Congress.
    5. Offers to buy all fishing permits from 68 eligible 
vessels on a willing buyer/willing seller basis. To be 
eligible, a vessel must receive at least 35 percent of its 
income from the permanently closed area.
    6. Vessel owners will be compensated by payment for all 
fishing licenses (Federal and state) and for forfeiture by the 
vessel of its fisheries endorsement. Vessels not documented 
will be prevented from being sold into any other commercial 
fishery.
    7. Total cost could approach $25,000,000. Funding will be 
through the National Marine Fisheries Service $15,000,000 if 
appropriated funds and $10,000,000 provided by the Federal 
Financing Bank. Funds will be provided only to vessel owners 
who can document landings and their Value. Owners will be paid 
$125,000 for their permit packages and an additional payment 
equal to one year's gross landings value not to exceed a total 
of $450,000.
    8. The Federal Financing Bank will be repaid with 
$10,000,000 split 50/50 between the recreational community and 
the longline industry.
    9. The longline industry will repay its obligation through 
a surcharge collected at the dealer level. The recreational 
community will repay its obligation through the issuance of a 
Federal license to vessels fishing for highly migratory species 
in the closed areas. The bill establishes a system for states 
to voluntarily elect to pay the debt for their fishermen.
    10. The bill will provide that the permits can be obtained 
at any post office, retail outlet, on the Internet or through a 
1-800 number system. The permits will issue to the boat and 
will not be transferable.
    11. Longline vessels will be prevented from reflagging or 
fishing in any other commercial fishery including state water 
fisheries.
    12. The bill includes requirements for vessel monitoring 
devices and enhanced observer coverage.
    13. The research program will include a special emphasis 
off the mid-Atlantic in the event of displacement there of 
existing vessels as a result of the closed area.
    The areas chosen for closure are a result of research done 
by The Billfish Foundation, which identified hot spots for 
bycatch, and by the swordfish industry which identified areas 
where small swordfish catches are found. The data used to 
identify these areas shows that the closures will have a number 
of positive impacts on bycatch. The preliminary estimates are 
that the closures will reduce U.S. longline bycatch in the EEZ 
by 47 percent for sails, 32 percent for blue marlin and 13 
percent for whites. In addition, they will have a positive 
impact on the bycatch of sharks, tunas, small swordfish, mahi 
mahi, wahoo and other species. The legislation will reduce the 
U.S. swordfish fleet by about one-third. Since these vessels 
also fish in other domestic fisheries from which they will be 
precluded, the buyout will have some positive impact on the red 
snapper, shark, grouper and mahi mahi fisheries.
    Internationally, it will set a precedent allowing the U.S. 
to negotiate the international closing of open-ocean bycatch 
hotspots and small swordfish areas. These closures will further 
assist in reducing the international fleet exploitation of 
billfishes.
    ASA, TBF and CCA have been praised and maligned for their 
efforts. Most of the criticism has been from groups that do not 
understand the legislation or are looking for solutions that 
are not attainable. I would like to address some of those 
criticisms.
    ``There is no conservation benefit.'' Approximately 52 
percent of the total small swordfish bycatch reported by U.S. 
pelagic longline fishermen in the U.S. EEZ occurs in the three 
proposed closed areas. Similarly, approximately 31 percent of 
the total billfish bycatch reported by U.S. pelagic longline 
fishermen in the U.S. EEZ occurs in these three areas combined. 
In addition, these closed areas will reduce the longline catch 
of other species, including mahi mahi.
    ``The vessels have already left the areas being closed.'' 
Prior to entering into the MOU, The Billfish Foundation 
commissioned a study by Dr. Phil Goodyear to look at the 
biological effects of time and area closures on the reduction 
of bycatch in the tuna and swordfish longline fleets. Dr. 
Goodyear looked at thousands of data sets from longline vessels 
in the south Atlantic and the Gulf to determine where and when 
the greatest reductions could be achieved if areas were closed. 
That data was used to determine which areas should be closed. 
In addition, in the Gulf the objective was to address the area 
of the greatest billfish bycatch and the recreational and 
longline fleet interaction without displacing the longline 
fleet to new areas of the Gulf or the Caribbean.
    ``There will be displacement of the fleet to the mid-
Atlantic bight.'' There are two issues here. The first is the 
impact of the vessels being bought out and the second is the 
potential for more effort in the mid-Atlantic as a result of 
the closed areas.
    A substantial portion of the negotiation over the MOU was 
spent discussing how to avoid the displacement of the eligible 
vessels to any fishery. The provisions in the bill that 
restrict the vessels accepting the buyout from participating in 
any commercial fishery were a result of those discussions. 
Vessels will be required to forfeit all of their state and 
Federal commercial fishery permits. In addition, the vessels 
will be required to permanently forfeit their fishery's 
endorsement, which will restrict any subsequent owner from 
placing the vessel in a commercial fishery. The vessels are 
also prevented from reflagging. Since these vessels are in 
limited entry systems, this will reduce the number of licenses 
in the swordfish, tuna, shark and red snapper fisheries. None 
of these vessels will ever again carry a longline or fish 
commercially.
    The remaining fleet is not likely to increase its activity 
in the mid Atlantic. Vessels not eligible for the buy out will 
be precluded from fishing in the East Coast closed area, but 
that does not mean they will be able to fish in the mid-
Atlantic. Most of the remaining fleet fish in the closed areas 
during the winter when there is little activity in the mid-
Atlantic. Closing some of the fleet out of the south isn't 
going to start a mid winter fishery.
This won't help get a rebuilding plan for swordfish.'' This 
bill is not intended as the exclusive measure to achieve a 
rebuilding plan for swordfish. The bill's aim is to reduce the 
harvest of small swordfish and billfish. However, it will 
greatly assist in the achievement of an Atlanticwide recovery 
that was just negotiated at the recent ICCAT meeting in Rio. 
ICCAT agreed with the United States that it would adopt a ten-
year rebuilding program for swordfish. That agreement came at 
some substantial cost to the domestic swordfish industry. In 
addition to taking a quota reduction, the domestic industry 
agreed to phase down its allowable discard of small swordfish. 
Without this concession by the industry, no deal approaching a 
ten-year rebuilding plan was possible.
Taken as a whole, the U.S. industry will take a quota reduction 
approaching 15 percent over the next three years, while other 
fishing fleets from the EU and Japan will take considerably 
less of a cut. I believe that the existence and the potential 
for eventual passage of this legislation gave the industry the 
will to make this sacrifice.
    ``Why not let NMFS close areas?'' CCA strongly endorses the 
principle that the Councils and not the Congress ought to 
manage fisheries. Given that, you might ask why we are 
supporting a legislative approach to address longline bycatch 
when the National Marine Fisheries Service is in the process of 
proposing rules to do just that. The reason is that NMFS does 
not have the authority under the Magnuson-Stevens Act to 
accomplish what can be accomplished through these bills. As 
Penny Dalton will tell you, these bills go well beyond what 
NMFS can accomplish through a rulemaking.
    NMFS can clearly close areas to longlining; however, in 
doing so it must take several factors into consideration, 
including the economic impact on the longline fishery and the 
biological impact on other fisheries if the closed areas result 
in the displacement of vessels. It has no authority to buyout 
displaced vessels and, therefore, would have to adjust the area 
it is proposing to mitigate the impact on the industry and 
other fisheries. This mix of considerations is best described 
by comparing the NMFS proposal for the Gulf of Mexico and the 
H.R. 3390/3331 Gulf closure. NMFS proposed to close an area in 
the Western Gulf from about Port Eads westward to the Mexican 
border for six months. This will have a significant biological 
benefit for billfish in the western Gulf and could have a 
positive impact on the spawning populations of bluefin tuna. It 
will, however, displace the entire western Gulf longline fleet 
to the eastern Gulf during that period. CCA members and anglers 
in Texas will enjoy substantially improved recreational 
billfishing and will be effectively free of any longline 
interaction. However, our members in Louisiana, Mississippi, 
Alabama and Florida will get to enjoy an even greater 
interaction with the longline fleet as longliners shift their 
effort to the east. Both of these bills are designed to prevent 
the lateral displacement of the fleet in the Gulf. By pushing 
the longline effort further offshore, it creates separation of 
the two activities and produces a positive conservation effect.
    On the East Coast this is even more dramatic. These bills 
propose a permanent closure on the East Coast from Key West to 
North Carolina. It assumes that there will be a number of 
vessels displaced as a result and offers to buy them out of all 
commercial fishing rather than allow them to shift their 
effort. NMFS can close the same area or an even one larger, but 
when it does, it will simply send the effort elsewhere, either 
to the Gulf or the mid-Atlantic. The alternative would be to 
reduce the size of the closure, thereby reducing the potential 
for displacement but also reducing the conservation benefit. 
Neither of these two results is going to make recreational 
fishermen happy.
    Mr. Chairman as you can tell from this testimony that the 
groups I represent support the Goss bill. We would be remiss 
however in not thanking you for your leadership and your 
efforts to balance the concerns of the multiple constituencies. 
We have tried our best to address those concerns in the Goss 
bill and think that approach has the best chance of ultimate 
passage. You help in continuing this legislation will be 
invaluable and we look forward to working with you.

STATEMENT OF MR. ERNEST PANACEK, MANAGER, VIKING VILLAGE DOCK, 
                   BARNEGAT LIGHT, NEW JERSEY

    Mr. Panacek. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am Ernie Panacek, Manager of Viking Village 
commercial fishing dock in Barnegat Light, New Jersey. I am 
also proud to be Blue Water Fishermen's Association's Regional 
Director for the New Jersey area and a Director of Garden State 
Seafood Association.
    I hope everyone recognizes this unprecedented step by our 
commercial fisheries substantially reduce unwanted regulatory 
discarding of undersize swordfish, billfish, and other highly 
migratory species.
    All along we have stated that once we had a defined 
universe of participants under limited access, we would develop 
a progressive plan to further reduce the catches of unwanted 
fish. We initiated this intense effort by surveying fishermen, 
dealers, and related businesses to determine the most effective 
and supportable approach for this task. Fortunately, principal 
mainstream sportfishing and conservation organizations shared 
our vision of the benefits of working cooperatively to solve 
major domestic problems so we can then turn as united Americans 
to approach the international arena with a more practical 
method to effectively achieve the conservation needed for the 
future of all our fisheries.
    Other groups, including the Recreational Fishing Alliance, 
attended initial negotiations, however, they insisted that only 
a total ban of U.S. pelagic longlining would satisfy their 
extremist view.
    The cooperative parties recognized this as a 
counterproductive direction and continued to develop perhaps 
the most progressive and positive proposal that has ever been 
developed between competing fishery sectors.
    Today, faced with NMFS' flawed competing regulatory 
proposal, it is tremendously important for Congress to pass S. 
1911 and H.R. 3390 before the agency is forced to finalize its 
proposed rule.
    Mr. Chairman, even though I appreciate that at its core 
your bill includes the cooperating parties' proposal, I am, 
however, concerned and will discuss the following differences 
in H.R. 3331 that I think undermine the intent and 
effectiveness of the courageous proposal embodied in 
Congressman Goss' H.R. 3390.
    (1) I support the inclusion of the additional purpose in 
H.R. 3331 that reinforces the value and the future of the U.S. 
pelagic longline fishery. Thank you for your dedication to 
keeping this fishery alive.
    I recommend Atlantic closed area coordinates that will 
correct the errors made by Senate Legislative Counsel that 
would cause unnecessary displacement and would ensure easier 
compliance and enforcement.
    I strongly oppose any second buyout. Our fishery will need 
time to settle out and evaluate the results of this dramatic 
conservation measure already incorporated into H.R. 3390. We 
are confident that any additional bycatch reduction can be 
cooperatively investigated through the research program.
    The mid-Atlantic buyout is not based on bycatch hotspots 
nor the importance of minimizing target catch disruption, thus, 
could needlessly and negatively impact this fishery. This 
buyout has not been developed by, and cannot be supported by, 
this fishery.
    I oppose any unilateral quota reductions. Experience shows 
unilateral cuts result in taking fish away from the compliant 
American fishermen, leaving this fish available to less 
conservation-oriented foreign fleets.
    I oppose the additional $5 million financial burden of an 
unnecessary second buyout. These are hard economic times for 
the U.S. pelagic longline fishery which suffered from reduced 
prices due to over three times more swordfish imports in 1998 
than in 1996. If additional government revenues are available, 
it should go towards minimizing the socio-economic impacts on 
related seafood businesses dependent on the vessels that are 
eligible for the voluntary buyout.
    I oppose an observer fee placed on a single Atlantic highly 
migratory species sector. The pelagic longline fishery already 
has copious amounts of accurate data while comparable 
information from other commercial and recreational sectors 
remain unknown.
    H.R. 3390 also already addresses additional observers for 
its research program. The mid-Atlantic effort limit may be 
supportable if revised to specifically focus on hooks displaced 
from the closed areas as a monitoring guideline, but not as an 
additional restriction. Operational variables in this fishery 
should remain flexible for potential bycatch reduction methods 
that should be studied by the research program in H.R. 3390.
    Finally, Mr. Chairman, I strongly and personally recommend 
the additional conservation measure of prohibiting ICCAT quota 
overages from being imported into the U.S. market as a 
tremendous advance for international highly migratory species 
conservation, and to level the playing field for the American 
fisherman.
    In conclusion, I hope that this Subcommittee will find the 
courage and wisdom to move forward H.R. 3390 as soon as 
possible, to send a strong message to all global nations that 
the United States is fully committed to conserve these valuable 
resources for future generations and stands behind their 
American fishermen who lead the world in this effort. Thank you 
very much.
    [The prepared statement of Mr. Panacek follows:]
    [GRAPHIC] [TIFF OMITTED] T4488.026
    
    [GRAPHIC] [TIFF OMITTED] T4488.027
    
    [GRAPHIC] [TIFF OMITTED] T4488.028
    
    [GRAPHIC] [TIFF OMITTED] T4488.029
    
    [GRAPHIC] [TIFF OMITTED] T4488.030
    
    [GRAPHIC] [TIFF OMITTED] T4488.031
    
    [GRAPHIC] [TIFF OMITTED] T4488.032
    
    [GRAPHIC] [TIFF OMITTED] T4488.033
    
    [GRAPHIC] [TIFF OMITTED] T4488.034
    
    [GRAPHIC] [TIFF OMITTED] T4488.035
    
    [GRAPHIC] [TIFF OMITTED] T4488.036
    
    [GRAPHIC] [TIFF OMITTED] T4488.037
    
    [GRAPHIC] [TIFF OMITTED] T4488.038
    
    [GRAPHIC] [TIFF OMITTED] T4488.039
    
    [GRAPHIC] [TIFF OMITTED] T4488.040
    
    [GRAPHIC] [TIFF OMITTED] T4488.041
    
    [GRAPHIC] [TIFF OMITTED] T4488.042
    
    Mr. Saxton. Ernie, thank you very much.
    Mr. Stone.

      STATEMENT OF MR. RICHARD B. STONE, SCIENCE ADVISOR, 
                 RECREATIONAL FISHING ALLIANCE

    Mr. Stone. Thank you, Mr. Chairman. I am Richard Stone, 
Science Advisor for the Recreational Fishing Alliance. I am 
here to present statements for the RFA and the National 
Coalition for Marine Conservation on the issues of time and 
area closures that are now being proposed by both the National 
Marine Fisheries Service and members of Congress.
    The organizations that I am representing have been 
advocating extensive longline area closures to protect 
undersize swordfish, billfish and oceanic sharks since 1996, 
and are pleased and encouraged that such measures are being 
seriously considered and are likely to be implemented in the 
near future. Unfortunately, differing approaches to instituting 
the closures are dividing the attention of the fishing and 
environmental communities.
    Congressional intervention carries with it two 
controversial changes in the management of large pelagic fish: 
it effectively transfers authority for managing the Atlantic 
pelagic longline fishery, now and in the future, from NMFS to 
Congress; and it links implementation of conservation measures 
in this fishery to financial compensation on the industry's 
terms. We do not think it is appropriate or necessary to 
completely change the interactive, highly migratory species 
management process that most of the organizations involved here 
and Congress helped put into place.
    With the HMS Advisory Panels and the cooperation with the 
U.S. ICCAT Commissioners and Advisory Committee, we believe the 
process is improving. The NMFS proposal for time/area closures 
is a good example. Congress should not step in and derail this 
process now.
    We appreciate the Committee taking the time to hold this 
hearing and getting input into this process because failure to 
resolve critical differences between the two approaches and 
unite the fishing and conservation communities in common 
purpose could undermine the conservation benefits that would 
ultimately derive from either proposal. This would short-change 
the resource and the fishermen who look forward to the benefits 
of recovered stocks.
    I will highlight some of the comments from the 
organizations that I represent, and also submit additional 
comments from the RFA and a position paper from the NCMC. They 
do not object per se to a buyout program, but are concerned 
that it is putting the cart before the horse in this case. The 
attachment of a buyout to the closures is touted as a 
preferable approach to the NMFS proposal because (a) it would 
remove effort from the fishery, thus decreasing the likelihood 
of increased bycatch rates in the areas left open to 
longlining, and (b) it has the support of the longline 
industry, which makes it more likely to be adopted.
    As with the NMFS proposal, the size and duration of the 
closures alone have the potential to reduce overall longline 
effort. Any added reduction in effort due to the buyout offer 
is uncertain mainly because its purpose is not effort reduction 
per se, but economic relief.
    It is possible that only those boats too small or too 
attached to their home port to move to other regions, or those 
that are struggling financially, will take the buyout offer and 
that the more mobile and financially solvent vessels that do 
threaten continued bycatch through redirected effort will 
remain active.
    More importantly, there is nothing in the bill that would 
prevent the boats remaining active in the fishery from 
increasing fishing effort and thus replacing the bought-out 
effort. While assumptions about the effects of displaced effort 
are uncertain under any scenario, an increase in effort is 
likely since the remaining vessels would end up with a larger 
share of the available landings.
    The conservation benefits of the proposed closed areas 
appear similar, but we would support the NMFS proposal for the 
South Atlantic which is slightly larger and beginning the 
closures in the Gulf of Mexico at least on May 1 rather than 
Memorial Day. The NMFS Technical Report dated October 1 clearly 
shows that discards of billfish increase dramatically in May in 
the Gulf. Larger closures appear to be needed in the Gulf of 
Mexico and we understand that the Gulf of Mexico Fishery 
Management Council has recommended closing the entire Gulf for 
part of the year.
    We support additional research and monitoring as proposed 
in the bills and suggest that it should not be limited to 
billfish, but include all species of concern. Under the 
proposed bills, however, NMFS is to report the results after 
four years to Congress with recommendations for legislation. 
The effect of this provision and the intent of the legislation 
is to take management authority for the U.S. pelagic longline 
fleet away from NMFS and give it to Congress.
    Research and monitoring will be critical to the success of 
any bycatch reduction plan based on time and area closures. 
Since these longline area closures are experimental in nature, 
and monitoring, evaluation and adjustment may be necessary, it 
is important that the information be available on a real time 
basis and that NMFS have the flexibility to make needed 
adjustments quickly. The proposed legislation would preclude 
any follow-up action to make adjustments, except under 
emergency conditions, until at least 2004, and then only by an 
Act of Congress. We think that is not in the best interest of 
conservation.
    We do agree with the concept of amending the Atlantic Tunas 
Convention Act to allow the Secretary the option of reducing 
the amount that the United States may harvest of its allocation 
or quota by the amount of capacity affected by the buyout and 
keeping it in a conservation reserve until the stock recovers. 
Any share allocated to the United States by ICCAT would not be 
changed by this action. This way the U.S. fishermen will not be 
disadvantaged in the long run.
    In summary, legislation is not necessary to implement the 
time and area closures and achieve the conservation benefits 
that would derive from them. That can and should be done 
through the regulatory process established by Congress under 
the Magnuson Act, and with which NMFS is complying. If Congress 
deems it necessary, it could follow implementation of the 
regulations with legislation to provide relief to those vessels 
that can demonstrate substantial adverse economic impacts as a 
direct result of the regulations.
    If the legislative route is pursued, then we suggest 
modifying Congressman Saxton's bill, and would insist that all 
language restricting future regulation of the U.S. longline 
fishery by NMFS be removed. Additional comments pertaining to 
this approach were submitted. We stand ready to work with 
Congress, NMFS, and others on trying to resolve the different 
approaches being considered.
    Mr. Chairman, thank you and your Committee for its help on 
these issues.
    [The prepared statement of Mr. Stone follows:]

   Statement of Richard Stone, Science Advisor, Recreational Fishing 
                                Alliance

    Mr. Chairman, I am Richard Stone, Science Advisor for the 
Recreational Fishing Alliance (RFA). I am here today to present 
statements for the RFA and the National Coalition for Marine 
Conservation (NCMC) on the issues of time and area closures 
that are now being proposed by both the National Marine 
Fisheries Service (NMFS) and Members of Congress.
    The organizations that I am representing have been 
advocating extensive longline area closures to protect 
undersize swordfish, billfish and oceanic sharks since 1996, 
and are pleased and encouraged that such measures are being 
seriously considered and are likely to be implemented in the 
near future. Unfortunately, differing approaches to instituting 
the closures are dividing the attention of the fishing and 
environmental communities. Congressional intervention carries 
with it two controversial changes in the management of large 
pelagic fish: it effectively transfers authority for managing 
the Atlantic pelagic longline fishery--now and in the future--
from NMFS to Congress; and it links implementation of 
conservation measures in this fishery to financial compensation 
on the industry's terms. We do not think it is appropriate or 
necessary to completely change the interactive, highly 
migratory species (HMS) management process that most of the 
organizations involved here and Congress helped put into place. 
With the HMS Advisory Panels and the cooperation with the U. S. 
International Commission for the Conservation of Atlantic Tunas 
Commissioners and Advisory Committee, we believe the process is 
improving. The NMFS proposal for time/area closures is a good 
example. Congress should not step in and derail this process 
now.
    We appreciate the Committee taking the time to hold this 
Hearing and getting input into this process, because failure to 
resolve critical differences between the two approaches and 
unite the fishing and conservation communities in common 
purpose could undermine the conservation benefits that would 
ultimately derive from either proposal. This would short-change 
the resource and the fishermen who look forward to the benefits 
of recovered stocks.
    I will, highlight some of the comments from the 
organizations that I represent, and also submit additional 
comments from the RFA and a position paper from the NCMC. They 
do not object, per se, to a buyout program, but are concerned 
that it is putting the cart before the horse in this case. The 
attachment of a buy-out to the closures is touted as a 
preferable approach to the NMFS proposal because (a) it would 
remove effort from the fishery, thus decreasing the likelihood 
of increased bycatch rates in the areas left open to 
longlining, and (b) it has the support of the longline 
industry, which makes it more likely to be adopted. As with the 
NMFS proposal, the size and duration of the closures alone have 
the potential to reduce overall longline effort. Any added 
reduction in effort due to the buy-out offer is uncertain, 
mainly because its purpose is not effort reduction per se but 
economic relief. It is possible that only those boats too small 
or too attached to their home port to move to other regions, or 
those that are struggling financially, will take the buy-out 
offer and that the more mobile and financially solvent vessels 
(that do threaten continued bycatch through redirected effort) 
will remain active. More importantly, there is nothing in the 
bill that would prevent the boats remaining active in the 
fishery from increasing fishing effort and thus replacing the 
bought-out effort. While assumptions about the effects of 
displaced effort are uncertain under any scenario, an increase 
in effort is likely since the remaining vessels would end up 
with a larger share of the available landings for swordfish, 
tunas and sharks.
    The conservation benefits of the proposed closed areas 
appear similar but we would support the NMFS proposal for the 
South Atlantic which is slightly larger and beginning the 
closures in the Gulf of Mexico at least on May 1st rather than 
Memorial Day. The NMFS Technical Report dated October 1, 1999 
clearly shows that discards of billfish increase dramatically 
in May in the Gulf. Larger closures appear to be needed in the 
Gulf of Mexico and we understand that the Gulf of Mexico 
Fishery Management Council has recommended closing the entire 
Gulf for part of the year.
    We support additional research and monitoring as proposed 
in the Bills and suggest that it should not be limited to 
billfish, but include all species of concern. Under the 
proposed bills, however, NMFS is to report the results, after 4 
years, to Congress with recommendations for ``legislation.'' 
The effect of this provision, and the intent of the 
legislation, is to take management authority for the U.S. 
pelagic longline fleet away from NMFS and give it to Congress. 
Research and monitoring will be critical to the success of any 
bycatch reduction plan based on time and area closures. Since 
these longline area closures are experimental in nature, and 
monitoring, evaluation and adjustment may be necessary, it is 
important that the information be available on a real time 
basis and that NMFS have the flexibility to make needed 
adjustments quickly. The proposed legislation would preclude 
any follow-up action to make adjustments, except under 
emergency conditions, until at least 2004, and then only by an 
Act of Congress. We think that is not in the best interest of 
conservation.
    We do agree with the concept of amending the Atlantic Tunas 
Convention Act to allow the Secretary the option of reducing 
the amount that the United States may harvest of its allocation 
or quota by the amount of capacity affected by the buyout and 
keeping it in a ``conservation reserve'' until the stock 
recovers. Any share allocated to the United States by ICCAT 
would not be changed by this action. This way the U.S. 
fishermen will not be disadvantaged in the long run.
    In summary, legislation is not necessary to implement the 
time and area closures and achieve the conservation benefits 
that would derive from them. That can and should be done 
through the regulatory process established by Congress under 
the Magnuson Act, and with which NMFS is complying. If Congress 
deems it necessary, it could follow implementation of the 
regulations with legislation to provide relief to those vessels 
that can demonstrate substantial adverse economic impacts as a 
direct result of the regulations. If the Legislative route is 
pursued, then we suggest modifying Congressman Saxton's Bill 
(H.R. 3331) and would insist that all language restricting 
future regulation of the U.S. longline fishery by the NMFS be 
removed. Additional comments pertaining to this approach were 
submitted as an attachment. We stand ready to work with 
Congress, NMFS, and others on trying to resolve the different 
approaches being considered. Thank you.
                                ------                                


   Aditional Comments by the RFA if the Legislative Approach is Used

    Like the NCMC, we are skeptical that changes in the 
legislative approach can be made through alterations to the 
bills currently before Congress, if for no other reason than 
that the likelihood of the longline industry supporting a bill 
modified to satisfy our concerns may be slim to none. As we 
stated in our testimony, legislation is not necessary to 
implement the time and area closures and achieve the 
conservation benefits that would derive from them. That can and 
should be done through the regulatory process established by 
Congress under the Magnuson Act, and with which NMFS is 
complying.
    If the Legislative route is pursued, then we suggest 
modifying Congressman Saxton's Bill (H.R. 3331) and would 
request that all language restricting future regulation of the 
U.S. longline fishery by the NMFS be removed. Responsible NMFS 
fishery managers, with the help of the APs, ICCAT Commissioners 
and ICCAT Advisors, and the interactive, public input process, 
must retain the discretion to evaluate the effectiveness of 
time and area closures in reducing longline bycatch and to take 
additional domestic actions in the future, including 
alternative closures and gear modifications, as part of the 
regulatory framework established under the FMPs for billfish, 
tunas, swordfish and sharks.
    In SEC. 5, the term ``AFFECTED STATE'' should be eliminated 
since all States will be ``affected'' to some extent and should 
be part of the repayment process of any buyout proposal.
    In SEC. 7, language should be added, that makes it clear 
that any action by the Secretary to reduce the amount that the 
U.S. may harvest of its allocation or quota by the amount of 
capacity reduction affected by the buyout should be kept in a 
``conservation reserve'' and that any share allocated to the 
U.S. by ICCAT would not be changed by this action. This gives 
the Secretary the same flexibility as Chairman Saxton's Bill. 
Further, it broadens the scope to include all areas and 
establishes a conservation reserve. It does not give up the 
conservation savings to any other ICCAT contracting party.
    As we stated in our testimony, we support additional 
research and suggest that it should not be limited to billfish, 
but include all species of concern. Also, it should not be 
limited to closed areas. The Secretary should be allowed to 
make any changes in the management regime shown necessary by 
the research results and report to Congress on progress but not 
have to wait for Congress to determine what management actions 
are necessary.
    We would have more specific, detailed comments if the 
legislative approach is used.
                                ------                                


                            Curriculum Vitae

                            Richard B. Stone

Sector--Marine Fisheries Consultant

                        Professional Experience

1996-present-- Sole proprietorship consulting company 
specializing in highly migratory species (HMS) management and 
research, fishery data collection, interactive management, 
dispute resolution, recreational fishery development, fishery 
management plan development, review and comment on fishery 
regulatory actions, research and management planning for 
artificial reef development (domestic and international), 
artificial reef plan development, and international aspects of 
HMS research and management. Technical Advisor for U. S. 
Advisory Committee for the International Commission for the 
Conservation of Atlantic Tunas (ICCAT), Advisory Committee 
member for the Atlantic Coastal Cooperative Statistics Program, 
and member of the steering committee to revise,, the U.S. 
National Artificial Reef Plan.
U.S. Government-Marine Fisheries Research and Management (32 
years)
1992-1996: Chief, Highly Migratory Species Management Division, 
Office of Fisheries Conservation and Management, National 
Marine Fisheries Service (Department of Commerce)-Headquarters. 
Directed Atlantic HMS management and coordinated research and 
management budgets for Atlantic HMS. Developed and instituted 
an interactive research and management policy for HMS bringing 
outside fishery interests more into the HMS management process. 
Supervised and participated in the development of fishery 
management actions for HMS including fishery regulations, 
fishery management plans, amendments to plans, and fishery 
closures. Prepared draft National Oceanic and Atmospheric 
Administration/National Marine Fisheries Service (Agency) 
policy positions on FIMS, Congressional briefing documents and 
gave briefings on EMS at all levels of the Agency. Participated 
in international management of HMS as member of U.S. Delegation 
to Japan, Canada, and Mexico and to ICCAT meetings (since 
1978). Agency expert on artificial reef research and management 
issues.
1976-1991: Recreational Fisheries Officer/Fisheries Management 
Specialist Headquarters. Coordinated Agency artificial reef 
activities, developed artificial reef policy, provided 
technical assistance to states and other countries on 
artificial reef development. Drafted marine recreational 
fisheries policy documents and coordinated or helped to 
coordinate marine recreational fisheries activities within the 
Agency. Served as key Agency contact with recreational fishing 
organizations and individuals. Set up task force to address 
recreational fishery data needs. Specifically developed Agency 
policy on artificial reefs through coordinating development of 
the National Artificial Reef Plan that involved bringing top 
artificial reef experts in the U.S. together to draft report. 
Worked with Sea Grant, The Sport Fishing Institute, and the 
Atlantic States Marine Fisheries Commission to develop an 
easily accessible data base for state and Federal artificial 
reef activities. Worked on HMS fishery management plans and 
drafted policy guidance for foreign fishing on HMS in the U.S. 
fishery conservation zone. Drafted, with the General Counsel 
for Fisheries, the Agency policy on managing billfish as a 
recreational fishery. Coordinated Headquarters ICCAT research 
and management activities. Served on steering committees for 
five international artificial reef conferences and chaired one.
1964-1976: Biological Oceanographer/Fishery Biologist--Sandy 
Hook Laboratory (NJ) and Beaufort Laboratory (NC). Directed 
artificial reef research for the Agency. Planned, conducted, 
and supervised scientific evaluation of artificial reefs to 
determine how and why fishes use reefs, comparative reef 
material efficiency, life histories of fishes using artificial 
reefs, and the effect of artificial reefs on recreational 
fishing. Collected and analyzed quantitative data on the 
increase in standing crop of fishes in the area of a natural, 
patch reef after adding an artificial reef of similar size 
nearby in the Biscayne National Monument, Florida. Completed a 
study of population dynamics of fishes on artificial reefs off 
Murrells Inlet, SC and directed a study to compare sport 
fishing catch and effort data from man-made and natural 
habitats off Murrells Inlet, SC and New York/New Jersey. 
Supervised tagging studies on mackerels to determine seasonal 
distribution and developed a format for recording tag release 
and recovery data. Supervised and conducted aerial temperature 
surveys with infrared sensors to study the distribution and 
abundance of surface schooling fishes in relation to 
temperature patterns. Participated as technical/scientific 
advisor to state and local artificial reef committees. Prepared 
the Environmental Impact Statement for the use of Liberty Ships 
as artificial reef material off the Virginia Capes.

                  Selected Publications (from over 45)

    Stone, R.B., H.L. Pratt, R.O. Parker, Jr., and G.E. Davis. 
1979. A comparison of fish populations on an artificial and 
natural reef in the Florida Keys. Marine Fisheries Review, 41: 
1-11.
    Stone, R.B., compiler. 1985b. National artificial reef 
plan. NOAA Technical Memorandum NMFS OF-6. U.S. National Marine 
Fisheries Service, Washington, DC.
    Stone, R.B., J.M. McGurrin, L.M. Spreague, and W. Seaman; 
Jr. 1991. Artificial habitats of the world: synopsis and major 
trends. Pp. 31-60 in William Seaman, Jr. and Lucian M. 
Spreague, eds. Artificial habitats for marine and freshwater 
fisheries. Academic Press, Inc. San Diego, CA.
    Stone, Richard B., C. Michael Bailey, Sarah A. McLaughlin, 
Pamela M. Mace. and Margo B. Schultz. 1998. Federal Management 
of the Atlantic Shark Fisheries. Elsevier, Fisheries Research 
808, 1-7.
[GRAPHIC] [TIFF OMITTED] T4488.043

[GRAPHIC] [TIFF OMITTED] T4488.044

[GRAPHIC] [TIFF OMITTED] T4488.045

[GRAPHIC] [TIFF OMITTED] T4488.046

[GRAPHIC] [TIFF OMITTED] T4488.047

    Mr. Saxton. Thank you very much, Mr. Stone.
    We are going to take about a five- or ten-minute recess. I 
apologize to the final two witnesses. We will be back in five 
or ten minutes.
    [Recess.]
    Mr. Saxton. Thank you for your patience, both members and 
witnesses and interested parties. We are going to proceed now 
to hear from Mr. Caputi. You may proceed, Gary.

  STATEMENT OF MR. GARY CAPUTI, CO-CHAIRMAN, HIGHLY MIGRATORY 
      SPECIES COMMITTEE, JERSEY COAST ANGLERS ASSOCIATION

    Mr. Caputi. First, let me thank Congressman Saxton and 
members of the Subcommittee for inviting the Jersey Coast 
Anglers Association and the New Jersey Federation of 
Sportsmen's Clubs, with the combined membership of over 120,000 
members, to comment at these proceedings. The comments are 
submitted on their behalf.
    H.R. 3390 contains the measures negotiated by groups that 
represent a portion of the recreational community. The groups I 
represent today have a membership that exceeds CCA and TBF, yet 
their positions and concerns were not considered. Any claim 
that the process was representative of the majority of 
recreational fishermen, their opinions and concerns is 
inaccurate.
    Time and area closures in the Gulf, while appearing 
extensive, fall inside the 500-fathom curve where pelagic 
longlining in recent years has been almost non-existent while 
leaving open other areas further offshore where longlining is 
still prevalent.
    Satellite temperature charts of the region clearly show 
that the Gulf Stream and its currents fall outside the closed 
area, yet they are the very places experiencing the most 
longline pressure. They also attract the greatest concentration 
of endangered billfish.
    Similar problems arise in the South Atlantic closed area. 
We have been advised that longline effort for swordfish, 
especially tuna, takes place along the eastern boundaries of 
the Gulf Stream. Satellite temperature charts reveal that the 
eastern edge of the Stream falls well outside the proposed 
close area in much of this region.
    One of our major concerns with H.R. 3390 and H.R. 3331 is 
that if southern closed areas are effective, there will be a 
significant effort shift to the mid-Atlantic states, and the 
bill ignores those implications.
    The mid-Atlantic is home to the largest fleet of private 
recreational and charter boats on the East Coast. Many fish 
offshore waters for tuna and billfish, and the economic 
importance of these fisheries is significant. More longliners 
in these waters will greatly increase ground conflicts between 
recreational and commercial fishermen. And the possibility of 
millions of additional longline hooks in the water each year 
will create huge increases in longline bycatch mortality of 
white marlin, the most overfished of the billfish species.
    It will put increased pressure on yellowfin, bigeye and 
longfin tuna stocks determined to be fully utilized by ICCAT. 
In fact, NMFS was so concerned about yellowfin stocks in the 
Western Atlantic that they placed a three-fish bag limit on 
recreational and charter fishermen recently.
    The northward shift has been alluded to no the record by 
longline representatives at the public hearings and, as the 
Congressman stated, marinas in New Jersey have already been 
contacted by numerous southern based longliners inquiring about 
dockage.
    H.R. 3390 contains no reduction in quota to match the 
number of boats bought in a buyout and, therefore, no real 
reduction in overall quota. If the quotas remain the same, 
every last pound of that quota will be landed by the smaller 
fleet, much of it from northern waters, we fear.
    The remaining 75 percent of the boats, if 60 are removed, 
will be the beneficiaries of reduced competition and increased 
quota shares. Unfortunately, this makes the bill appear to be 
more of a relief package for the longline industry and a 
conservation bill for the resource, and it forces taxpayers and 
recreational fishermen to foot the bill.
    The cost of the buyout is to be shouldered not by the 
remaining longliners, but by the taxpayers and recreational 
fishermen in the form of another new fishing permit. Just two 
years ago, recreational fishermen were burdened with a Federal 
tuna permit which originally cost $18, but this year will rise 
to $25. This bill imposes a second permit for fishing in the 
closed areas. Both permits are in addition to saltwater fishing 
licenses imposed by many states. We feel that both permits are 
unacceptable, and that issuance of recreational fishing permits 
and licenses should remain the domain of the states.
    One of the most troubling aspects of H.R. 3390 is a four-
year moratorium on future regulation. If the reductions in the 
landings of juvenile swordfish and the mortality of billfish, 
marine mammals and sea turtles are not realized through this 
legislation--and there are serious reasons to believe they will 
not be--the bill guarantees the longline fleet a four-year 
moratorium on further regulatory and legislative measures. We 
feel this is a recipe for disaster.
    H.R. 3331 begins to recognize the concerns of 
conservationists and recreational fishermen that were ignored 
in H.R. 3390. In its present form, it does not provide the 
level of effort reduction desired, but it is a step in the 
right direction. It marginally addresses the northward effort 
shift, but in the long run, at present, falls short of being a 
conservation tool to reduce the mortality of juvenile swordfish 
and billfish.
    H.R. 3516, introduced by Congressman Sanford, calls for the 
complete session of longlining and offers the greatest 
conservation benefit, and embodies a concept that more than 100 
recreational fishing and conservation organizations already 
signed on to in support of just last year.
    Concerning the NMFS time and area closures, we feel that 
they are the proper venue for doing so, and have the regulatory 
power under the Magnuson Act. In fact, time and area closures 
were the highlight of the Highly Migratory Species FMP 
developed after extensive participation. It was supported by a 
large number of recreational fishing and conservation 
organizations involved in the process, and could be in place 
for the 2001 fishing year.
    NMFS regulation is the proper venue for such measures, and 
they include no buyout burden on the general public and no new 
permits for recreational fishermen.
    If fleet reductions prove necessary, provisions in the 
Magnuson-Stevens Act allow for longline industry to buyout 
boats using special low-interest government loan programs that 
would be repaid by the sale of fish products caught by the 
remaining boats. The positive conservation benefit of boat 
buyout schemes to date is highly questionable. Look at the 
programs to aid New England groundfish fleet. The government 
has spent over $23 million to purchase 79 trawlers, $7 million 
in disaster relief for fishermen who still can't fish, and an 
additional $15 million on programs involving idle commercial 
fishing vessels. With over $45 million in taxpayer dollars 
spent already, the fisheries off New England are still in 
terrible shape and little, if any, reduction in fishing effort 
has been realized as a result of the buyout.
    In summary, H.R. 3390 and H.R. 3331 appear to be focused on 
creating a compensation package for longliners and conservation 
is taking a back seat.
    In our opinion, it is time to step back, look at the 
benefits and downsides of each approach being put forward. We 
should establish a forum where we can all put our heads 
together and do what is best for the resource, without taking 
punitive action against any group, especially recreational 
fishermen who we feel are being used as pawns in the process, 
pitting us against each other.
    The proper venue for time and area closures is through 
NMFS, the mechanism already exists in the law. Further 
conservation efforts, if legislation proves necessary, must be 
hammered out between the longline industry and a far more 
widely representative majority of the recreational and 
conservation communities.
    The members of the New Jersey Coast Anglers Association and 
the New Jersey Federation of Sportsmen's Clubs thank the 
Members of the Committee for the opportunity to voice our 
concerns. Thank you.
    [The prepared statement of Mr. Caputi follows:]

    Statement of Gary Caputi on behalf of the Jersey Coast Anglers 
    Association and New Jersey State Federation of Sportsmen's Clubs

    The Jersey Coast Anglers Association and the New Jersey 
Federation of Sportsmen's Clubs have a combined membership of 
one hundred fifty thousand concerned sportspersons.
    The rush to post bills aimed at curbing longlining has 
reached a fever pitch with a total of three bills submitted in 
the House in recent weeks. They vary dramatically in their 
ability to reduce longline fishing effort; to reduce the 
horrendous problem of longline bycatch of white marlin, blue 
marlin, sailfish, marine mammals and endangered sea turtles; 
and to provide genuine conservation benefits by reducing the 
bycatch and harvest of juvenile swordfish.
    Two bills, H.R. 3390 and H.R. 3331, include a proposed 
buyout of a portion of the longline fleet which burdens those 
not responsible for the damage done by this indiscriminate gear 
type with paying the bill to bail out those who participated in 
the fishery. The very individuals and companies that benefited 
financially for years from using these damaging fishing 
practices will be relieved of responsibility and economic loss. 
The bills will provide select longliners with an escape hatch 
paid for by the U.S. taxpayer and, amazingly, by recreational 
fishermen who have been paying the price of longline 
indiscretions for over two decades already. Recreational 
fishermen, and the wide-reaching industries supported by their 
activities, have suffered the loss of fishing opportunities and 
reductions in participation. This is due to the decimation of 
stocks of recreationally important billfish killed as bycatch 
by longline fishing activities and the total loss of a once 
vibrant recreational fishery for swordfish, as that species has 
been overfished to record low levels. Even commercial harpoon 
fishermen have suffered a similar loss in their ability to 
participate in the swordfish fishery they once dominated for 
over one hundred years and which was still thriving until the 
introduction of industrial longlining. It took just two decades 
of longlining to put them out of business and forced the 
remaining boats to transfer effort to the beleaguered bluefin 
tuna stocks.

H.R. 3390

    This bill was originally sponsored in the Senate by 
Senators John Breaux (LA) and Olympia Snow (ME) both recognized 
champions of commercial fishing. The house version, H.R. 3390, 
was then introduced by Congressmen Billy Tauzin (LA) and Porter 
Goth (FL). It contains the measures negotiated between the 
Coastal Conservation Association (CCA), the Billfish Foundation 
(TBF), the American Sportfishing Association (ASA) with the 
longline industries Blue Water Fisherman's Association (BWFA).
    H.R. 3390 includes provisions for time and area closures in 
the Gulf of Mexicoland the south Atlantic and the controversial 
buyout of longline vessels previously mentioned in addition to 
a provision that defers any further conservation action for 
four years after adoption of the bill, even if the bill does 
not prove effective. The area closures, especially those in the 
Gulf, while appearing extensive, mostly fall inside the 500-
fathom curve where pelagic longlining activities in recent 
years have been almost non-existent, while failing to close 
areas further offshore where longlining is prevalent. Similar 
problems arise in a portion of the South Atlantic closed area 
off South Carolina, Georgia and northern Florida. We have been 
advised that most longline effort for swordfish, tunas and 
dolphin, which accounts for a greatest percentage of billfish 
bycatch, takes place along the eastern boundaries of the Gulf 
Stream. This area falls well outside the proposed closure area.
    If the proposed closure areas in H.R. 3390 do have a 
significant effect on the longlining effort in the Gulf and 
south Atlantic, there will be a significant effort shift to the 
north and the bill provides absolutely no protection for the 
mid-Atlantic region. These areas are home to the largest fleets 
of recreational fishing boats and charter boats on the East 
Coast and a shift in longline fishing effort there will cause 
extensive conflicts between the two user groups. Such an effort 
shift will put greatly expanded longline efforts and possibly 
millions of additional hooks in the water each year that will, 
potentially, create a huge increase in the bycatch mortality of 
white marlin, the most overfished and precariously balanced 
stock of all the billfish species. It will put increased 
pressure on the yellowfin, bigeye and longfin albacore tuna 
that are all, at present, determined to be fully utilized by 
ICCAT. In fact, NMFS was so concerned with maintaining the 
health of the yellowfin stocks, that they unilaterally placed a 
three fish bag limit on recreational and charter fishermen. 
Such an effort shift will increase the harvest of these fish by 
longliners. Further, NMFS own data indicates that any reduction 
realized in the harvest and bycatch mortality of juvenile 
swordfish through the closed areas will become insignificant if 
longline effort increases in the mid-Atlantic canyons, where 
juvenile swordfish are also present.
    The cost of the buyout in H.R. 3390, estimated to cost $25 
million or more, is to be shouldered by taxpayers; seafood 
consumers in the form of a tariff on all swordfish sold; and 
recreational fishermen in the form of a new fishing permit to 
be required for sportfishing boats venturing into the closed 
areas. No portion of the cost is to be paid by the remaining 
longliners who will benefit from the reduction in fleet size 
the buyout will attempt to make. Keep in mind that just two 
years ago recreational fishermen were stunned by the imposition 
of a Federal ``tuna permit'' unilaterally regulated into 
existence by the National Marine Fishery Service. It originally 
cost $18, but this year will rise to $25. A commercial 
fisherman can purchase a permit to longline from NMFS for only 
$50. This bill will impose a second permit for the privilege of 
being able to fish in the closed areas, on top of the one 
already in existence. These permits are in addition to 
saltwater fishing licenses that are imposed by growing number 
of states. How many times can the government ``tax'' people to 
fish for public resources? With the imposition of another 
permit, recreational fishermen will be paying more money for 
licenses and permits than the longliners, but no one is 
offering to buy their boats as the fisheries decline. This new 
permit is totally unacceptable.
    The criteria for longline boats to participate in the 
buyout are extremely loose. It will allow owners of boats that 
have not participated in the fishery in recent years to get in 
on the big payoff. At the same time, H.R. 3390 contains no 
reduction in quota, and therefore no real reduction in overall 
fishing effort on the longliners that remain in the fishery. If 
the quotas remain the same, every last pound of the quota will 
be landed by the remaining boats in the fleet.
    The remaining boats, which comprise about 75 percent of the 
existing fleet if the buyout indeed removes 60 boats, will be 
the beneficiaries of greatly reduced competition and increased 
quota share as a result. It's a great deal for the longliners 
who sell and an even better one for those who stay in the 
fishery. Congress is going to force citizens and recreational 
fishermen to buy out a big chunk of their competition. 
Taxpayers, consumer and recreational fishermen will foot the 
bill and the remaining boats will each get a greater share of 
the same quota.
    Therefore, in all honesty, H.R. 3390 does not reduce 
overall fishing effort and any reduction in bycatch is purely 
speculative. In effect, it forces taxpayers and recreational 
fishermen foot the bill to make the boats in the longline fleet 
more profitable and ultimately, more politically powerful. 
However, there is still another very troubling part of this 
poorly conceived bill. If, for any reason, the reduction in the 
landings of juvenile swordfish, the overfishing of billfish and 
the mortality of marine mammals and sea turtles through bycatch 
are not realized, and there are many reasons to believe they 
will not be, the bill guarantees the remaining longline fleet a 
four-year moratorium on any further regulatory or legislative 
measures. This is a recipe for disaster.
    The Jersey Coast Anglers Association and the New Jersey 
Federation of Sportsman's Clubs can not support this bill for 
all of the above mentioned reasons.

H.R. 3331

    The second bill, sponsored by Congressman James Saxton 
(NJ), chairman of the House Committee on Sustainable Fisheries, 
Oceans and Wildlife, mirrors H.R. 3390, but establishes a 
correlation in quota reduction corresponding to the number of 
boat purchased through the buyout. Though some mechanism, the 
quota reduction only comes into play for boats transferring 
effort to, or fishing in the Mid-Atlantic Bight area. H.R. 3331 
recognizes the concerns of many conservationists and 
recreational fishermen that H.R. 3390, while having the 
potential to provide some conservation benefits in the Gulf and 
South Atlantic closure areas, will create a massive shift in 
fishing effort to the Mid-Atlantic region and further north. 
Such an effort shift is all but guaranteed by H.R. 3390 because 
most of the boats that will ``volunteer'' for the buyout money 
will most certainly be the least profitable and least mobile in 
the fleet. They will be boats that are only marginally in 
business at this point in time, if not already sitting idly at 
the dock. The remaining 75 percent of the fleet will consist of 
larger, more modern vessels capable of traveling great 
distances or shifting their base of operations into the mid-
Atlantic region. They will be increasing operations in an area 
of the greatest concentration of recreational fishing boats, 
the states between North Carolina and New York, where grounds 
conflicts are sure to arise. In addition, the effort shift will 
place far greater pressure in areas where seasonal 
concentrations of white marlin are still found in U.S. waters. 
Note that that the white marlin is the most endangered and 
overfished of the billfish species and is in that precarious 
state due to longline bycatch over the past twenty plus years. 
It will further stress the critically important yellowfin tuna 
fishery that accounts for the most recreational participation 
in region.
    While H.R. 3331 recognizes one of the flaws in H.R. 3390, 
it still does not do enough to address the many inadequacies of 
that proposed legislation. JCAA can not support this bill in 
its current form.

H.R. 3516

    The third bill, H.R. 3516, introduced by Congressman Mark 
Sanford (SC) calls for the complete session of longlining in 
all U.S. EEZ waters. This bill is obviously the strongest and 
offers the greatest conservation benefit for both swordfish in 
U.S. waters and in reduction of bycatch mortality of all 
billfish, marine mammals and sea turtles. It embodies a concept 
that approximate 100 recreational fishing and conservation 
organizations had signed on in support of in just last year. As 
a result of the strategically timed introduction of H.R. 3390 
which offers greatly watered conservation efforts, if any at 
all, H.R. 3516 is given little chance of advancing through the 
House. This is truly unfortunate.

NMFS Highly Migratory Species Fisheries Management Plan
Proposed Rule for Time and Area Closures

    With all these legislative efforts underway, the National 
Marine Fisheries Service, in a recent public hearing 
announcement, detailed specifications for a proposed rule that 
would institute major time and area closures in the south 
Atlantic and Gulf of Mexico through the regulatory power 
granted them by the Magnuson-Stevens Act. The use of time and 
area closures to reduce bycatch of juvenile swordfish and 
billfish was actually the highlight of the Highly Migratory 
Species Fishery Management Plan unveiled by NMFS last year 
after two years of development time. The time and area closures 
portion of the FMP was postponed while NMFS could further study 
longline logbooks to determine where such areas should be 
located to be effective. Now begins the public hearing process 
to gather additional information concerning the proposal so 
that it can be fine-tuned to accomplish its objectives. The 
time and area closure portion of the FMP was strongly supported 
by the majority of the recreational fishing and conservation 
organizations involved in the advisory process during the 
development of  the FMP, including The Billfish Foundation, 
which has now shifted its effort away from the regulatory 
process to seek a legislative solution, including a costly 
buyout scheme.
    NMFS detailed a total closure of the south Atlantic region 
from South Carolina through the Straights of Florida year-round 
and a seasonal closure of the entire western Gulf of Mexico 
from the Mexican border through Louisiana from March 1 through 
September 30 in the proposed rule. Following the procedures set 
out in the Magnuson-Stevens Sustainable Fisheries Act, passed 
by this body, NMFS is requesting public comment on the closure 
areas and timing and is in the process of holding public 
hearings. Once comments are reviewed, the final rule will be 
developed and implementation could be in place for the 2001 
fishing year.
    The importance of accomplishing the time and area closures 
through  regulation, actually the correct venue for such 
measures, is that no buyout burden will be placed on the 
general public and recreational fishermen and no new permits 
will be required of recreational fishermen. Provisions in the 
Magnuson-Stevens Sustainable Fisheries Act allow the longline 
industry to buyout boats effected by the closure through 
special, low interest government loan program that would not 
burden taxpayers and recreational fishermen that would be paid 
back through the sale of fish products caught by the remaining 
boats. No legislative buyout is necessary, period!
    The entire concept of boat buyouts to reduce fleet size, 
and, ostensibly, fishing effort is highly questionable when one 
looks at what has happened in New England in the past few years 
and what is occurring in the Pacific northwest right now. In 
New England, the government has spent over $23 million to 
purchase 79 commercial trawlers, $7 million in so-called 
disaster relief for remaining fishermen who can't still can't 
fish, and now an additional $15 million is being spend on 
questionable scientific research to be conducted by idle 
commercial fishing vessels. With over 45 million in taxpayer 
dollars spent already, the fisheries off New England are still 
in terrible shape and little, if any, reduction in fishing 
effort has been realized. Whose to say the results of a 
longliner buyout, which is actually a subsidy for the remaining 
boats in the fleet as well, will have any better results.

Summary

    The NMFS proposed rule accomplishes time and area closures 
through the proper channels. It closes areas that longline, 
recreational fishing and conservation organization 
representatives, in the development of the HMS-FMP, agreed had 
to be closed, However, it stops short of spending millions of 
dollars to compensate longliners for their supposed economic 
loss, even though they are the cause of that loss in the first 
place.
    In the case of H.R. 3390 and H.R. 3331, these legislative 
efforts appear to be more focused on creating a compensation 
package for commercial fishermen than conservation and 
protection for juvenile swordfish and decimated billfish 
stocks. We feel that it is not the place of Congress to 
micromanage fisheries. We find it disturbing that these bills 
contain provisions that prevent any regulatory action for an 
additional four years during which time the need to further 
protect these species and other marine animals could arise.
    While H.R. 3331 begins the process of bring some measure of 
conservation to H.R. 3390, in its current form, it falls far 
short of the expectations of the majority of conservation and 
recreational fishing groups. With an open and constructive 
dialogue, this bill might be crafted into a real conservation 
bill and one simply aimed at conserving the longline industry 
and bailing out a portion of the fleet that is no longer 
profitable.
    In the opinion of the Jersey Coast Anglers Association, 
it's time to take a step back and look at the motives of all 
the groups involved and the benefits and downside of each 
approach being put forward. We should establish a forum where 
we can put all our heads together and do what is best for the 
resource without taking punitive action against the 
recreational fishermen who, we feel, are being used as a pawn 
in this process, by pitting us against each other. The largest 
number of recreational groups have agreed that the proper venue 
for time and area closures is through the regulatory body 
charged by law with doing it, the National Marine Fisheries 
Service. The mechanism already exists in the law. While NMFS 
has a less than stellar track record in the past, the agency 
appears poised to do the right thing without Congress getting 
in the way.
    Further conservation efforts, if legislation proves 
necessary, must be hammered out between the longline industry 
and a more far more widely represented majority of the 
recreational fishing and conservation communities than were 
present at the negotiations that developed H.R. 3390. Any 
suggestion that the three groups involved in that process 
represent a majority of the recreational fishing and 
conservation organizations is simply not accurate.

    Mr. Saxton. Thank you very much.
    Dr. Wilmot.

   STATEMENT OF DR. DAVID WILMOT, EXECUTIVE DIRECTOR, LIVING 
            OCEANS PROGRAM, NATIONAL AUDUBON SOCIETY

    Dr. Wilmot. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify today on behalf of the National Audubon 
Society. National Audubon Society is a national conservation 
organization with more than 550,000 members and, as a member of 
the Ocean Wildlife Campaign, has advocated for bycatch 
reduction measures in the pelagic longline fleet for years.
    Minimizing bycatch and bycatch mortality is a fundamental 
element of conserving marine wildlife and rebuilding depleted 
populations of overfished and protected species. Large scale 
time and area closures are a necessary part of any bycatch 
reduction plan for the fleet, and we are pleased they are being 
seriously considered.
    NMFS proposed rule, H.R. 3331 and H.R. 3390 all propose 
large area closures. In general, we concur with the areas 
selected because they include areas with the highest bycatch 
rates. We are studying the proposed rule in detail and will 
recommend adjustments in the borders of the closed areas.
    It is difficult to evaluate the conservation implications 
of the area closures in the two bills because there is not a 
detailed analysis available. We do, however, suggest that the 
South Atlantic closure in the bills be expanded to include the 
entire Charleston Bump area, which is known to have high 
bycatch of juvenile swordfish.
    It must be recognized that closures alone, even with a 
buyout, may not be sufficient to guarantee significant bycatch 
reduction because of the threat of displacement of fishing 
effort.
    NMFS's analysis of its own proposed closures shows that at 
least some displacement is likely, and factoring in 
displacement has a major effect on the biological benefits of 
the closures. In order to have confidence that significant 
bycatch reductions are realized, we recommend that landings of 
vessels in closed areas--this is with or without a buyout--be 
subtracted from the overall pelagic longline quota. We propose 
expanding the effort in quota reductions detailed in H.R. 3331 
beyond the mid-Atlantic to include the entire region. We also 
support changes as suggested in H.R. 3331 to the Atlanta Tunas 
Convention Act and the Magnuson-Stevens Act to accomplish this.
    Providing for a quota reduction for longliners based on 
closures will not result in effort reduction for the remaining 
fleet or disadvantage U.S. fishermen. Commercial fishermen 
don't have to lose quota. Commercial fishermen don't have to 
lose quota because we can reallocate a portion of the swordfish 
quota from the longliners to commercial fishermen using 
selected gears--for example, harpoons or rod and reel. Give 
these men the opportunity to catch the remaining swordfish 
quota. This would allow the quota to be caught while minimizing 
the risk of increasing bycatch.
    The turtle situation has been raised. That is one of 
particular concern because the turtle bycatch in the New 
England area is so high, and if we have increased effort in 
that area, we likely will see that problem exacerbated.
    In fact, commercial fishermen in the New England area have 
indicated to us that they will target swordfish with their 
selected gears, provided that big fish return to the region.
    We strongly support NMFS efforts to publish a final rule, 
and we do not believe that NMFS is required to provide economic 
relief for needed conservation in management efforts, however, 
we could support legislation that establishes large scale time 
and area closures to significantly reduce bycatch, and includes 
a buyout, provided specific changes to existing legislation 
proposals are incorporated. We believe there is an opportunity 
to move forward with the legislation, and we welcome it.
    We have additional issues that we would like to raise very 
briefly. I have provided detailed comments in writing that you 
have. The first one was raised this morning by Ms. Dalton and 
several other panel members. This is the four-year, or longer, 
prohibition on interim regulations. Monitoring, evaluation and 
adjustment are critical to the success of any bycatch reduction 
plan. Because of the uncertainty surrounding the effectiveness 
of time and area closures, it is essential that any bycatch 
reduction plan be designed from the onset to provide NMFS the 
ability to manage in a flexible and adaptive manner. We 
strongly oppose Sections 13 and 12 in H.R. 3331 and H.R. 3390, 
respectively, because they deprive NMFS of this flexibility.
    We also oppose the prohibition on closures going into 
effect unless and until a buyout is completed. We believe 
closures must go into effect whether or not a buyout takes 
place.
    The second issue is the need for onboard observers. Given 
the uncertainty surrounding any large scale time and area 
closures, we recommend that increased observer coverage should 
be mandated so that we can reliably determine the effects of 
the closures. In addition, we recommend the research program 
proposed in H.R. 3331 and H.R. 3390 be expanded beyond just 
billfish to include all species in geographic areas in the HMS 
and billfish FMPs. In addition, the conservation community 
should be included in all phases of the research programs 
development and implementation.
    The third issue is the need for a vessel monitoring system, 
which is essential for enforcement of closed areas. NMFS' 
current requirement that all longline vessels carry VMS should 
remain in place. To do less would represent a rollback in 
current regulations.
    In closing, H.R. 3331 and H.R. 3390 require a huge 
investment by the public to help conserve a valuable public 
resource. We believe strongly that the public interest will be 
served only if conservation takes precedence and the 
legislation is revised to provide additional bycatch reduction 
guarantees and protections for overfished and protected 
species.
    Mr. Chairman, we appreciate the opportunity to share our 
thoughts on these challenging and important issues with the 
Subcommittee, and we look forward to working with you in the 
future. Thank you.
    [The prepared statement of Dr. Wilmot follows:]
    [GRAPHIC] [TIFF OMITTED] T4488.048
    
    [GRAPHIC] [TIFF OMITTED] T4488.049
    
    [GRAPHIC] [TIFF OMITTED] T4488.050
    
    [GRAPHIC] [TIFF OMITTED] T4488.051
    
    [GRAPHIC] [TIFF OMITTED] T4488.052
    
    [GRAPHIC] [TIFF OMITTED] T4488.053
    
    [GRAPHIC] [TIFF OMITTED] T4488.054
    
    [GRAPHIC] [TIFF OMITTED] T4488.055
    
    [GRAPHIC] [TIFF OMITTED] T4488.056
    
    Mr. Saxton. Thank you very much.
    I would like to thank each of you for articulating your 
positions. It has been an interesting process to date.
    If I may just reflect on what has occurred. For years, 
members of this Committee, including me, have anxiously awaited 
the rule that would provide for the limited entry as a 
prerequisite to implementing a conservation plan, buyout, what 
have you--closures, buyouts, et cetera. I was encouraged to a 
large degree when NMFS put the limited entry rule in place, and 
thought that we could move forward. But in moving forward, it 
seems to me that we have at this point several options. We can 
find a consensus, or not. And if we don't, then the legislation 
would proceed to run over somebody's interest--I am not quite 
sure whose it would be at this point because I don't see a 
consensus among the members of the Subcommittee either--or we 
could do nothing, I suppose, and I am not sure that that serves 
conservation's needs. And so in order to try to bridge the gap, 
I met over months with all of you and other interested parties, 
and listened to all sides, understand that we need conservation 
effort, understand that NMFS has an important role to play, 
tried to listen and move toward a consensus--incidentally, I 
didn't introduce my bill for talking purposes. I introduced my 
bill as a serious effort--and then we tried to take the 
proposal that was arrived at by three coalition members to my 
left and your right, and we tried to add some provisions to it 
to solve the problems of the mid-Atlantic Bight, which had to 
do basically with displacement.
    We provided for a second buyout, which is optional. We 
provided for a 10-percent limit on increased effort by longline 
boats/fishermen, and we included a provision which said that 
displaced boats, if that is the correct term, could increase 
their days at sea in the mid-Atlantic Bight by no more than 10 
percent of what they had done on average in the mid-Atlantic 
Bight between 1992 and 1997. I figured we were moving toward 
some kind of a compromise.
    And so Congress broke right after we introduced the bill, 
and I left Washington with the intent of spending my break 
talking about this issue with all interested parties. First, I 
met with the longline fishermen, explained my provisions, 
talked about it for a couple of hours, explored possibilities, 
and at the end of the day there was no movement.
    And I went and met with members of the conservation 
community, members of the recreational community. After about 
three and a half hours, there was movement toward more 
conservation and more stringent measures.
    So my efforts in closing the gap had just the opposite 
effect, it broadened the gap. So we are not moving toward 
consensus. So that means that somehow or another, as chairman 
of this Committee, I have two other choices. Since we are not 
moving toward consensus, I can do nothing, or I can hold a 
series of hearings and see if a consensus develops, or I can 
try to develop a consensus among Members of this Committee 
which none of you are going to end up liking. So, I am a little 
frustrated with the process because we haven't seemed to move 
together in any meaningful way.
    And so I guess my question is, inasmuch as we don't appear 
to be moving toward a consensus, and inasmuch as I doubt if the 
Members of the Subcommittee are going to mark up something 
where there is no consensus, I guess my question is, to whoever 
wants to respond, where do we go from here? Mr. Stone?
    Mr. Stone. Mr. Chairman, since no one else has spoken up, I 
will try just to say a few words. First, we are pleased with 
your attempt to try to come up with a consensus. I think, as I 
stated in my testimony, that it is important that we pull 
fisheries folks together, both the fishermen and conservation 
community, and try to solve bycatch problems. There is no 
question, it is a problem. However, there is a process--what 
the organizations I represent are concerned about is that by 
going through the legislative route, we are getting away from a 
process that has been set up, an interactive management 
process. There is an advisory panel. There is the ICCAT 
Advisory Committee. And what I would hope is that we could work 
within that process that is already set up and come up with 
something to solve the problem.
    Now, it is going to be difficult, no question about it, but 
it is going to be difficult, as you pointed out, under any 
scenario, and it is just a concern of the groups that I 
represent that if we go with a legislative approach--what you 
are proposing, there is no problem with what you are proposing 
in the sense of the closed areas, the buyout, things like that. 
It is just that that takes the management authority really away 
from NMFS. It just disrupts the management process that has 
been put into place.
    So, we would hope that it could be done somehow within the 
process that has been set up. Thank you.
    Mr. Saxton. Any other comments?
    Mr. Delaney. I will take a shot. Just to clarify, I said in 
my statement, I believe, that it was my understanding that the 
provisions, the additional provisions that were added to your 
bill were particularly for the purposes of discussion, but at 
the same time we have provided discussion on those issues. And 
in my testimony, I think we made clear that Blue Water 
Fishermen's Association is not supportive of the second buyback 
in the mid-Atlantic area. It does not support unilateral 
actions through amending the Atlantic Tunas Convention Act or 
through unilateral reductions in swordfish quota for a number 
of reasons we have articulated in our testimony. But at the 
same time, as my testimony indicates, we are very sensitive to 
your concern about displacement into the mid-Atlantic Bight and 
do feel, as I stated in my testimony, that we would like to 
work with you on the provision that specifically addresses 
monitoring and looking at the issue of increased fishing effort 
in the mid-Atlantic bight as a consequence of the closed areas, 
particularly those in the South Atlantic region.
    So, we do see that area as a productive area for 
discussion, which I think there can be movement when we fully 
develop and further develop our thoughts and ideas about how 
most effectively to address that concern.
    It is a very difficult issue to deal with in displacement, 
and about the only thing we can say with any certainty at this 
point is that any of the vessels who accept the buyback will 
not be displaced. Beyond that, we can offer you indications and 
assumptions that may be somewhat anecdotal based on our, and my 
client's extensive knowledge of the industry as to what is 
likely to occur. Until the program is implemented, it is very 
difficult to predict precisely what will be the results of 
those time/area closures, and who will accept a buyback, and 
what vessels are capable of fishing where and where they will 
go.
    So, to address that issue in a more general way seems 
preferable, such as the approach I think you took in section 12 
of your bill. We would like to work with you, as I said in my 
testimony, on that provision to try to address that issue.
    Mr. Saxton. Thank you. Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, as you had stated earlier, 
the attendance our friends at this hearing certainly a 
reflection of the complexity of the issue now before us.
    We have got, obviously, four competing interests. You have 
got the conservationists. You have got the recreational 
aspects. You have got the commercial, and also the regulatory. 
I seem to hear interesting comments here that some of you are 
satisfied with NMFS performance, and I hear otherwise.
    Do I get a sense from you gentlemen that you are satisfied 
with the current workings and functionings of the National 
Marine Fisheries in providing the resources and the things that 
are needful, whether it be commercial or recreational, in terms 
of its regulatory authority under current statutes, or do you 
feel that the current proposal is going way beyond what you 
would envision? I mean, I am just asking a general question 
here. If I could get some responses, please.
    I am glad we have our friend here from ICCAT because I have 
some questions for Mr. Delaney as well.
    Mr. Hayes. Let me see if I can answer at least from a 
coastal conservation standpoint this issue of administration 
versus doing this in a fashion which we propose, which is do it 
legislatively.
    We don't think the National Marine Fisheries Service has 
either the capability or the legislative authority to do what 
we are trying to do in this legislation. They will tell you 
that they can create a buyout. Those set of regulations, I 
believe, have been about two and a half years in the making, 
have been designed for another buyout up in Alaska. They have 
no relationship to what is going on in this fishery or probably 
any other fishery than the one they are being designed for. 
Lord knows how long it is going to be before those regulations 
come out and set up a framework in which they can operate.
    Secondly, in the Gulf of Mexico, this distinction that we 
made where we drew a line out to 500 fathoms and simply took 
that for about a 105-day period and just pushed those boats 
out, in some cases, 50 miles and in some cases about 125 miles.
    The National Marine Fisheries Service is going to look at 
that proposal and they are going to publish a regulation that 
looks exactly like the one they have published, which says ``We 
will close it all off of Texas, and for you Coastal 
Conservation Association members that live in Florida and 
Alabama and Louisiana and Mississippi, you lucky guys, you get 
what is coming because it is coming from Texas''. We tried to 
design something that would prevent the displacement of those 
vessels, and we think we did that.
    Now, if you were to look at what we did legislatively, or 
proposed legislatively, it is probably arbitrary from a purely 
scientific standpoint, but it does solve the overriding 
problem. National Marine Fisheries Service has a standard by 
which it publishes regulations which doesn't allow it to be 
arbitrary. It has to do things based on science, and based on 
the impact that it would have on existing communities when they 
put those regulations in place. They can't draw that line, and 
that line is vitally important to us as recreational fishermen. 
We don't see how NMFS has the capability to do what is in the 
legislation.
    I can tell you that one of the basic hallmarks of the 
Coastal Conservation Association is that we work inside the 
system, and we try to work with regulators. We are in 15 
states, we have 17 state lobbyists. I can tell you, we are 
working inside the system in lots of places.
    We don't normally come to Congress and ask Congress to do 
specific management measures. In fact, under normal 
circumstances, we would never take this route. We took this 
route because we don't think the Fisheries Service can do what 
needs to be done.
    Mr. Faleomavaega. Mr. Wilmot?
    Dr. Wilmot. I'd just like to very briefly add to this. On 
the buyout side, it may be true that NMFS is not in a position 
to be able to address this issue, but our biggest concern on 
this is that in looking at it, this is the beginning of a 
solution, not the end. This will potentially benefit 
conservation. Depending on how it is crafted, it could have a 
significant impact, but it is still only the beginning.
    This is directed at a couple of species in particular, the 
billfishes including the swordfish. It is not looking at other 
species. For example, pelagic sharks. They are not overfished 
right now. They may be designated as overfished in the very 
near future.
    The point is that we can't really anticipate all of the 
problems that are going to come up in the next short period of 
time that NMFS will need to be able to respond to. This 
legislation has very strong language that limits dramatically 
how NMFS will respond to this problem. The rhetoric is there. 
It is a first step. We know more has to be done. The language 
is very Draconian and holds back. NMFS needs the flexibility, 
and that is why I think in Mr. Stone's testimony and our 
testimony we feel it is essential that NMFS have this 
flexibility now and in the future to address this problem as it 
evolves.
    I can promise you, this will not solve the bycatch problem 
of highly migratory species. None of us sitting here believe 
that. The key is, how best do we take the second step. And many 
of us fear that this will inhibit the second step that will be 
needed.
    Mr. Faleomavaega. My sense in reading the provisions of the 
bill, there is no restriction that provides for NMFS to monitor 
and to analyze the situation, unless I am wrong on this.
    Dr. Wilmot. The section 12 and 13 language that basically 
puts a four-year prohibition, a time-out as some have called 
it, actually raises the bar quite high, requiring that 
emergency action be taken by NMFS limiting it to actions on 
highly migratory species, not other species, including 
protected species such as turtles. So, we actually believe the 
language in sections 12 and 13 in H.R. 3390 and H.R. 3331, 
respectively, is very, very----
    Mr. Faleomavaega. So your concern is that the language is 
not as inclusive of other species, but are more specific on 
these certain species that the legislation has addressed.
    Dr. Wilmot. Correct.
    Mr. Faleomavaega. Mr. Stone.
    Mr. Stone. Just to elaborate a little bit more on what Dr. 
Wilmot said, we do believe it is very important to conduct the 
research and monitoring, and because of the flexibility needed, 
to look at what is happening.
    We have all stated that we don't know exactly what is going 
to happen with the relocation or shift of effort or whatever, 
and so there could be some things that could be damaging to the 
other stocks. And they need to have the capability to move on 
it quickly, not to wait for four years to do something.
    And to address your question about is NMFS doing a good 
job, I think a lot of people feel like NMFS doesn't do as good 
a job as it should, and it varies by species/groups that we are 
talking about. But we think that when NMFS does try to do 
something, that Congress can find ways. I know when I worked 
for National Marine Fisheries Service, they could find ways to 
put pressure on us to do certain things--other than through 
legislation is what I am talking about.
    And so I think you have the capability to have influence, 
and there are things, such as the buyout and the research 
program, where there needs to be some help, but we are just 
concerned that the process remains interactive.
    Mr. Caputi. Specifically to your question about whether we 
are comfortable with NMFS doing a good job, probably quite the 
opposite is true. NMFS, on its own with highly migratory 
species, has taken a long time to develop regulations for 
specific species. Those regulations now are being finalized 
with their time and area proposals which are supposed to be one 
of the highlights of that Fisheries management plan.
    In different arenas, NMFS has done a better job and, 
unfortunately, in those arenas, the job being done is impacted 
politically. Take a look at the council system. I sit on the 
Mid-Atlantic Fisheries Management Council. We have a relatively 
balanced council as far as commercial, recreational and 
conservation membership. If you look at councils in other areas 
of the United States, those councils are heavily biased by one 
user group or the other, usually commercial. And the job that 
they do is impacted dramatically by that bias.
    You only have to look to New England or some of the Pacific 
councils to see the type of situation that their fisheries are 
in and the reasons for those, and I think Congress could help 
NMFS do a better job by enforcing the Magnuson Act provisions 
that call for councils to be more balanced. So, in some cases, 
NMFS' job is impacted politically. In other cases, the job that 
NMFS does is impacted by competing pressures.
    One of the things I would like to say is the proceedings 
that we are dealing with here today I think set the stage for 
us to do something in probably the most difficult Fisheries 
management arena there is, and that is pelagic fisheries. There 
are no simple answers. There never has been.
    The Chairman, after many, many years of dealing with this, 
I am sure, can attest to that. But I don't see the process that 
has been started here with either of these bills or with what 
NMFS is doing as an end, I see it as a beginning. I would like 
to see the Chairman and this Committee put together a forum to 
continue the discussions and to continue the work that has been 
started between a wider range of recreational fishing groups, 
bring in the conservation community that in some cases has been 
left out of the process, and the commercial longliners, and see 
if we can't hammer out a more conservation oriented bill that 
still takes care of people economically.
    Mr. Hayes. Can I take a moment to make a comment on this 
timeout provision. I think people, frankly, before they become 
overly critical of it, ought to read it because I think it is 
fairly explicit in what it says.
    It was designed to ensure that the scientific research that 
is in the bill would be conducted before you made adjustments 
to the areas that are closed. That was its intent. Limitation 
in there doesn't limit the National Marine Fisheries Service 
from doing the research, conducting the research, doing the 
analysis. It doesn't limit anyone from coming back to Congress. 
If we could do that, wouldn't that be a wonderful thing. People 
would love us for that, but I think that is pretty unlikely. I 
don't think you could do that to yourself.
    It doesn't limit the National Marine Fisheries Service from 
taking any other form of conservation regulation or measure 
that they deem necessary. They could adjust the hook size, the 
length of the lines, the soak times. There are all sorts of 
things the National Marine Fisheries Service could do.
    What it does limit them to do, it says if you are going to 
adjust those time and area closures, then, frankly, you can't 
do that unless there is a resource emergency. They could even 
do that if they could demonstrate that there was a resource 
emergency.
    Now, there are some consultation requirements in there. 
There are some requirements that they at least have to consult 
with commissioners, look at the ICCAT recommendations. There 
are things like that which are findings, essentially, and 
things that they would have to do, but it is not a raising of 
the bar that it is so high that you have tied the hands of the 
National Marine Fisheries Service.
    Mr. Faleomavaega. Well, as you know, earlier I raised the 
issue of the boundaries that were drawn by the National Marine 
Fisheries Service as comparison to Congressman Saxton and 
Senator Breaux' sense of boundaries in this EEZ, if you will, 
and it is quite different, in my humble opinion, at least what 
I found here.
    And the question I raise, was it because their studies were 
more scientific, or is it just by adjusting these boundaries? 
Was there any reason behind these differences? And I would like 
to ask Mr. Delaney if any of this has any impact on ICCAT's 
mission, or are we in compliance with ICCAT's function and 
everything that we expected it to be?
    Mr. Delaney. Thank you. I appreciate that question. First 
of all, the general concepts that we are trying to address here 
to substantially decrease our bycatch in small swordfish and 
billfish, I would say, far exceed our requirements at ICCAT, 
our international obligation.
    I would also note that the United States accounts for 
approximately 5 percent of the total harvest by all ICCAT 
nations, of ICCAT managed species, highly migratory species.
    We cannot manage this resource alone. We can terminate all 
of our highly migratory species in the Atlantic Ocean, and it 
would have absolutely no positive conservation effect. In fact, 
I would strongly argue it would have a negative conservation 
effect because we would be turning our fish, our allocations, 
our quotas, back over to those nations to do a far worse job in 
terms of compliance in bycatch conservation. So, we are way, 
way ahead of the curve in terms of ICCAT with this proposal.
    What the three main parties sitting here today agreed, 
though, was an important objective was to establish in the 
United States basically a model that we could take to ICCAT and 
advocate and say, ``See, this is what we were able to 
accomplish through time/area closures in terms of bycatch 
reduction, we ought to apply these same ideas and principles on 
the international level to achieve far greater and what would 
be truly meaningful reductions in bycatch throughout the 
Atlantic''.
    We talk about big numbers here in this bill and in my 
presentation, big percentages of reduction in bycatch. That is 
in the U.S. EEZ. If you compare that to the Atlantic-wide 
effect, it is rather minimal.
    What we need is international cooperation to do the very 
same things we have done on a very micro-scale here.
    Mr. Faleomavaega. Do you suggest, Mr. Delaney, that we are 
not doing enough in pushing ICCAT to have a little higher 
standard than just for the United States and its fishing 
industry to do the same?
    See, my problem here is I heard somebody mention about 
imported swordfish. If we are to consider our own local 
industry--of course, I know that we import about $7 billion 
worth of fish from foreign countries because we don't produce 
enough domestically--but there was some mention about imported 
swordfish. It gives me the idea that all other foreign 
countries are catching, they don't care whether it is small or 
big or whatever measures, as compared to the restrictions that 
we have set upon our own commercial fishing industry.
    So, I suppose when we see this imported swordfish coming 
from other countries in Europe, it does raise a concern. If I 
were a commercial fisherman, I would be really ticked off.
    Mr. Saxton. If the gentleman would yield.
    Mr. Faleomavaega. I would be glad to yield to the Chairman.
    Mr. Saxton. On that point, the United States has developed 
a great appetite for swordfish, and obviously that has created 
a good situation for commercial fishermen in this country, but 
it also has given rise to the importation of large amounts of 
swordfish.
    And as Ernie suggested, we might want to look at doing 
something with that. As a matter of fact, we are in the process 
of drafting a bill which takes note of the fact that last 
summer NMFS, with the assistance of the Customs Service and 
other U.S. agencies, implemented a system which prohibits the 
importation of undersized Atlantic swordfish, and we are now 
looking at legislation which we will introduce under a separate 
bill because it will be referred to the Ways and Means 
Committee, that would prohibit fish caught by foreign fishermen 
and fleets in excess of ICCAT conservation quotas from being 
imported in the United States as well.
    So, hopefully we will have the opportunity to leverage 
through that legislation some international conservation effect 
with regard to swordfish.
    Mr. Faleomavaega. Mr. Chairman, I hope it will include the 
Pacific as well.
    Mr. Saxton. Ernie wanted to make a comment.
    Mr. Panacek. Yes, I just wanted to comment briefly on the 
import situation, too, just to convey that our American 
fishermen are very frustrated and they are very discouraged 
with that influx of foreign countries sending the swordfish in 
and reducing the American fishermen's prices to a great extent, 
when we are all involved, foreign countries and the United 
States, and the United States is trying to make that position 
that the American fishermen are doing the best they can to 
conserve this resource, and I think we have to pursue that, and 
we have to pursue it aggressively.
    Mr. Faleomavaega. Thank you. Thank you, Mr. Chairman. Thank 
you, gentlemen.
    Mr. Saxton. Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I just wanted to ask 
Gary Caputi a couple of questions. Actually, I guess I can make 
them one question. I have your statement, but I obviously 
wasn't here when you and the rest of the panel made your 
statements orally.
    With regard to the two bills, Mr. Saxton and Mr. Goss' 
bill, what evidence do you have that the closed areas in the 
Gulf of Mexico and off South Carolina, Georgia and northern 
Florida might be ineffective. And then following up on that, 
can you expand on your concerns about an effort shift to the 
mid-Atlantic region and the implications for the resource and 
the recreational fishing industry?
    Mr. Caputi. Certainly, Congressman Pallone. I did have the 
opportunity to address those a little bit earlier while you 
were out of the room.
    One of the businesses that I am involved in is a high tech 
business that provides satellite ocean temperature charts for 
recreational fishermen throughout the Gulf of Mexico, Florida, 
South Atlantic and the mid-Atlantic States. And one of the 
things that we have done--and we have provided Congressman 
Saxton with some of the information--was detailing specific 
charts that track the Gulf Stream, its currents, throughout the 
Gulf States, the Gulf of Mexico and the South Atlantic region.
    And one of the areas that has been targeted in recent years 
by recreational fishermen and by longliners, are temperature 
gradients--and the Gulf Stream loop creates the largest 
temperature gradient. Areas of great temperature change have a 
tendency to amass bait fish and to amass specific types of 
target species like billfish and swordfish. And one of the 
rules of thumb that we used looking at the area closures was 
the location of the Gulf Stream and its loop currents in the 
Gulf of Mexico compared to where the breakoff line was at the 
500-fathom curve for the proposed close areas in the two bills, 
and noted that the Gulf Stream and its loop currents are well 
outside of those boundaries. So we feel that while possibly in 
years past the greatest bycatch of billfish and juvenile 
swordfish was more in-shore, in recent years longline activity 
seems to have been taking place further offshore along the 
edges of the Stream and in those loop currents. So that is one 
of the reasons that we made those comments, and we have 
provided that information to any number of sources around the 
table and on the Subcommittee.
    Concerning the displacement, yes, there is any number of 
groups, the two that I am here commenting on today, the New 
Jersey Coast Anglers Association and the New Jersey Federation 
of Sportsmen's Clubs, we are seriously concerned with an influx 
of longline activity into the New York Bight, the mid-Atlantic 
Bight area in particular, because it is such a vibrant 
recreational fishery.
    As you know, being a Representative from New Jersey, the 
canyon areas between North Carolina and off of Long Island, 
through that area, are prize recreational fishing destinations. 
We have had our pelagic fisheries that used to occur closer to 
short--bluefin tuna, pelagic sharks--pretty much decimated over 
the last 25 years, and hence the recreational fishery has moved 
further offshore into the canyons, and it depends heavily on 
yellowfin tuna and also white marlin and blue marlin which 
occur very heavily in those areas. And in recent years, 
surprisingly enough, a large number of juvenile swordfish are 
being caught and released by recreational fishermen through the 
canyon areas. So, an increase in longline activity in those 
areas is something that we really worry about and would like to 
see addressed in the bills.
    H.R. 3331, Congressman Saxton's bill, begins to do that, 
and we would just like to see more discussion on that topic. 
Thank you.
    Mr. Pallone. And you said that information that you talked 
about earlier is being disseminated to everyone so they will 
all have it.
    Mr. Caputi. Yes.
    Mr. Stone. Congressman Pallone, if I could, I would like to 
say that the Recreational Fishing Alliance also is concerned 
about shift in effort, and that is one of the reasons why, as I 
said in my testimony, they would support Congressman Saxton's 
bill. Thank you.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you. I just want to thank all of you 
again for being here to share your thoughts with us today. Just 
by way of announcement, we had tentatively scheduled a hearing 
to accommodate Mr. Goss and people in Florida who are 
interested in this subject for February 23. Unfortunately, Mr. 
Goss can't make it that day, and so we will have to go back to 
the drawing board on that effort. So, that would have been the 
next step in the process.
    We also are planning a Northeast hearing at some future 
date after the Florida hearing, so we will get back to all of 
you with regard to that information at a later time.
    Unless there are other questions at this point, the hearing 
will be adjourned. Thank you very much again for being here.
    [Whereupon, at 1:30 p.m., the Subcommittee was adjourned.]

</pre></body></html>
